<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 107-722]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-722
 
                   MISCELLANEOUS NATIONAL PARKS BILLS
=======================================================================



                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 1257                               S. 1944

                           H.R. 107                              H.R. 38

                           S. 1312                               H.R. 980

                           H.R. 2109                             H.R. 1712

                               __________

                             JUNE 12, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources







                       U. S. GOVERNMENT PRINTING OFFICE
82-280                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
BOB GRAHAM, Florida                  BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CONRAD BURNS, Montana
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
CHARLES E. SCHUMER, New York         CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           PETE V. DOMENICI, New Mexico

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
                     Nancie Ames, Bevinetto Fellow










                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Bereuter, Hon. Doug, U.S. Representative from Nebraska...........     2
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     4
Faleomavaega, Hon. Eni F.H., Delegate from American Samoa........     9
Graham, Hon. Bob, U.S. Senator from Florida......................     9
Hefley, Hon. Joel, U.S. Representative from Colorado.............     3
Meek, Hon. Carrie, U.S. Representative from Florida..............     7
Mills, Jay, Vice-President of the Friends of Moccasin Bend, 
  Chattanooga, TN................................................    42
Nelson, Hon. Bill, U.S. Senator from Florida.....................     6
Reid, Hon. Harry, U.S. Senator from Nevada.......................    39
Ririe, Chairman, Silent Heroes of the Cold War National Memorial 
  Committee, Las Vegas, NV.......................................    40
Smith, P. Daniel, Special Assistant to the Director, National 
  Park Service...................................................    17
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     4
Wamp, Hon. Zach, U.S. Representative from Tennessee..............    12

                                APPENDIX

Additional material submitted for the record.....................    49















                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        WEDNESDAY, JUNE 12, 2002

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:55 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka presiding.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The hearing will come to order. I want to 
welcome our witnesses here, and those also in the audience, for 
your interest in this hearing. The purpose of this afternoon's 
hearing before the Subcommittee on National Parks is to receive 
testimony on six bills pending before the subcommittee.
    The bills that we are considering today are S. 1257 and 
H.R. 107, to require the Secretary of the Interior to conduct a 
theme study to identify sites and resources to commemorate and 
interpret the Cold War, S. 1312 and H.R. 2109, to authorize the 
Secretary of the Interior to conduct a special resources study 
of Virginia Key Beach Park, Florida, for possible inclusion in 
the National Park System, S. 1994, to revise the boundary of 
the Black Canyon of the Gunnison National Park and Gunnison 
Gorge National Conservation Area in the State of Colorado, H.R. 
38, to provide for additional land to be included within the 
boundaries of the Homestead National Monument of America in the 
State of Nebraska, H.R. 980, to establish the Moccasin Bend 
National Historic Site in the State of Tennessee as a unit of 
the National Park System, and H.R. 1712, to authorize the 
Secretary of the Interior to make adjustments to the boundary 
of the National Park of American Samoa to include certain 
portions of the Islands of Ofu and Olosega within the park.
    A number of these bills would protect areas constituting 
valuable additions to our National Park System, and I would 
like to say a few words about H.R. 1712, which would authorize 
an expansion of the National Park of American Samoa. This park 
was created in 1988, in a lease arrangement between the 
Secretary of the Interior and the Governor of American Samoa. I 
would like to commend Congressman Faleomavaega, who is here 
today, for his work to obtain the support of the local village 
councils to expand this important park.
    I support his efforts to bring together the National Park 
Service and the government of American Samoa to protect 
endangered species such as the hawkbill and green sea turtles 
and the rain forest habitat. This is a remarkable environment, 
and I am pleased to see that it is being protected, not only 
for American Samoans but for all Americans.
    I believe most of the bills on today's agenda are 
noncontroversial. There are management issues within the 
proposed Moccasin Bend Historic Site in Tennessee that will 
require the committee's attention, and I look forward to 
working with the bill's sponsors and Senator Thomas as we 
consider this bill.
    So let me then pass it on to Senator Thomas and ask for his 
statement.
    [The prepared statements of Congressmen Bereuter and Hefley 
follow:]
     Prepared Statement of Hon. Doug Bereuter, U.S. Representative 
                             From Nebraska
    Chairman Akaka, Senator Thomas, and members of the Subcommittee: I 
would like to begin by thanking you for the opportunity to present 
testimony regarding H.R. 38, a bill I introduced on January 3, 2001. 
During the previous 106th Congress, I introduced the same legislation.
    The Homestead National Monument of America Additions Act, H.R. 38, 
is a straightforward bill. It is also noncontroversial. The bill would 
simply adjust the boundaries of Homestead National Monument of America 
and allow a small amount of additional land to be included within its 
boundaries.
    The measure reflects the recommendations in the recently completed 
General Management Plan (GMP) calling for a minor boundary expansion 
for Homestead National Monument. Unfortunately, the current visitor 
center is located in a 100-year flood plain. The acquisition of land 
outside the existing boundaries as recommended in the GMP would allow a 
new ``Homestead Heritage Center'' to be constructed outside the 
floodplain. This would offer greater protection to the Monument's 
collections, interpretive exhibits, public research facilities, and 
administrative offices.
    As the bill makes clear, the land for the Heritage Center is to be 
acquired on a willing-seller basis. It is my understanding that all of 
the individuals who would be involved in the boundary adjustment have 
expressed a willingness to sell for a negotiated price.
    The Homestead National Monument of America commemorates the lives 
and accomplishments of all pioneers and the changes to the land and the 
people as a result of the Homestead Act of 1862, which is recognized as 
one of the most important laws in U.S. history. This Monument was 
authorized by legislation enacted in 1936. The FY96 Interior 
Appropriations Act directed the National Park Service to complete a 
General Management Plan to begin planning for improvements at 
Homestead. The General Management Plan, which was completed last year, 
made recommendations for improvements that are needed to help ensure 
that Homestead is able to reach its full potential as a place where 
Americans can more effectively appreciate the Homestead Act and its 
effects upon the nation.
    Homestead National Monument of America is truly a unique treasure 
among the National Park Service jewels. The authorizing legislation 
makes it clear that Homestead was intended to have a special place 
among Park Service units. According to the original legislation:

          ``It shall be the duty of the Secretary of the Interior to 
        lay out said land in a suitable and enduring manner so that the 
        same may be maintained as an appropriate monument to retain for 
        posterity a proper memorial emblematic of the hardships and the 
        pioneer life through which the early settlers passed in the 
        settlement, cultivation, and civilization of the great West. It 
        shall be his duty to erect suitable buildings to be used as a 
        museum in which shall be preserved literature applying to such 
        settlement and agricultural implements used in bringing the 
        western plains to its present state of high civilization, and 
        to use the said tract of land for such other objects and 
        purposes as in his judgment may perpetuate the history of this 
        country mainly developed by the homestead law.''

    Clearly, this authorizing legislation sets some lofty goals. I 
believe that H.R. 38 would help the Monument achieve the potential 
which was first described in its authorizing legislation.
    Thank you for allowing me the opportunity to testify in support of 
H.R. 38.
                                 ______
                                 
      Prepared Statement of Hon. Joel Hefley, U.S. Representative 
                             From Colorado
    Mr. Chairman, I'd like to thank you for allowing me to present 
testimony today on my bill, H.R. 107; and the similar measure, S. 1257, 
introduced by Senator Reid.
    No doubt many of you remember where you were on Tuesday, September 
11 of last year. On that day America was attacked without warning by an 
unknown foe. Many of us here on the Hill were forced to improvise the 
evacuations of our staffs and ourselves. In its aftermath, we face a 
future of unexpected, devastating attacks on the general population. We 
cannot see its end . . . but we have seen it before.
    From 1946 to 1989, the United States mobilized itself against 
sudden attack by its ideological foe, the Soviet Union. For 43 years, 
we ringed our cities with Nike anti-ballistic missiles and built 
fallout shelters in the basements of our schools. We made plans then to 
evacuate not just buildings, but whole cities. Our children practiced 
``duck-and-cover'' drills against nuclear attacks at school and laughed 
at the cartoon antics of an all-American squirrel and his moose 
sidekick against a pair of spies named Boris and Natasha. We went to 
the moon and developed the computers to get there. Along the way, we 
developed the Internet to communicate with each other.
    All of these were products of the Cold War, probably the most 
important historical movement of the latter half of the 20th Century.
    My own involvement with the Cold War theme study began in August 
2000 at a National Park Service conference in Colorado. The question 
arose as to whether there were any facets of American history which 
hadn't been covered by the Park Service and one NPS official ventured, 
``I've always thought we ought to do a study of Cold War sites.'' I 
introduced my first version of the Cold War bill a month later.
    The Cold War ended with the fall of the Berlin Wall in 1989. In 
recognition of that event, Congress included a provision in the Defense 
Appropriations Act of 1991 that mandated an inventory be completed on 
the important resources, relics and artifacts associated with this 
unique period in American history. The U.S. Air Force assumed the 
leadership role for this inventory and completed several historical 
studies that examined the physical legacy of the Cold War.
    But although the Air Force studies inventoried many resources, the 
National Park Service has never undertaken a comprehensive study of the 
feasibility of preserving and interpreting Cold War resources.While a 
joint Air Force/NPS study led to inclusion of one Minuteman missile 
complex in the Park System, no further studies have been undertaken to 
determine whether additional Cold War candidates are warranted for 
inclusion in the Park System. As more and more such resources are 
decommissioned and removed, further preservation planning becomes 
critical.
    My bill, H.R. 107, would direct the Park Service to undertake a 
three-year theme and reconnaissance study of Cold War sites across the 
United States. The resulting report would help the states and the NPS 
determine which merited protection or National Landmark status and 
Congress, whether any deserve to be park service units. Modeled in part 
after the NPS' successful Underground Railroad study, the bill also 
directs that the NPS develop a handbook to these sites.
    H.R. 107 also recognizes the past efforts of the Department of 
Defense and other state and local groups in studying Cold War sites and 
resources. At our subcommittee markup on March 22, 2001, we approved an 
amendment in the nature of a substitute that removed a prior provision 
for a Cold War Advisory Committee and instead required the Secretary of 
the Interior to consult with state historic preservation offices, state 
and local officials, Cold War scholars and others while conducting the 
Cold War study. This amendment addressed some objections by the Park 
Service over the advisory committee. Further, we felt this would 
expedite the process and avoid re-inventing the wheel.
    The amendment also required that the Secretary consider military 
and non-military sites and resources associated with the people, events 
and social aspects of the Cold War. Joseph McCarthy and the Space Race 
are as much a part of Cold War history as the Bay of Pigs and the Cuban 
Missile Crisis.
    Finally, the amendment requested that the study include 
recommendations on the feasibility for a central repository for Cold 
War artifacts. I realize there is some competition for this designation 
among a number of worthy aspirants but think that an NPS recommendation 
is the best course of action at this time. Francis Gary Powers Jr.--and 
Senators Allen and Warner--can make a good argument for placing this 
repository in Virginia. Senator Reid can, no doubt, make a good 
argument for placing it in Nevada, just as I can argue it should be in 
Colorado and other Senators, Nebraska and New Mexico. For right now, I 
think we should try to get the study underway and wait for the NPS 
recommendation on where or what it should be.
    My bill passed out of the House Resources Committee by a voice vote 
on September 28, 2001 and the full House, also by a voice vote, on 
December 18. In addition, that bill was supported by the 
Administration--with the ongoing caveat that the maintenance backlog be 
addressed first. I have no objection to that priority--even support its 
aims--but believe we should continue to identify those themes and sites 
we deem worthy of study. This is one of them.
    I have examined Senator Reid's bill and found little difference 
between his bill and my own, save for some natural interest in Nevada 
sites. His bill honors my request that the bill continue to focus on 
the study process and not become something parochial. I note his bill 
retains the advisory committee that we dropped at the subcommittee 
level. I would suggest, therefore, that the subcommittee consider using 
my bill, H.R. 107, as the legislative vehicle for this issue, amend it 
to include the sites Senator Reid has suggested, then send it back to 
the House for its concurrence and passage. This would seem the best and 
cleanest way to see that this legislation is enacted and this study 
begun.
    Other than those points, I think these bills are headed in the same 
direction and I look forward to working with you on their eventual 
passage. Again, thank you for allowing me to present this testimony for 
your consideration.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I will be brief so 
we can hear from our witnesses, whom I welcome here. I really 
only have a question in the one, H.R. 980, and I guess what 
concerns me as much as anything--and I think it was in 1998 we 
passed the parks bill which required a study prior to these 
things, which I think is a good idea.
    However, the park has a responsibility to study 
responsibly, and I must tell you, I am going to have to 
question this study, where it talks about it would be feasible 
for inclusion if we eliminate a number of incompatible uses, 
including a State mental hospital, a model airplane facility, 
two radio towers, a golf course, and a law enforcement training 
range.
    Well, and then they think it could be removed by 2009. You 
have a State mental hospital that probably will be where it is 
for another 35 years. It includes an $18 million cost to remove 
some of these things. I really am anxious to hear from the Park 
Service in terms of the study and how they are able to come up 
with one of this kind.
    In any event, welcome all of you here, and certainly we 
look forward to dealing with the issues that are here.
    Senator Akaka. Thank you very much.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you, Mr. Chairman. I want to 
welcome our colleagues from the other body, Zach Wamp and 
Carrie Meek, and Eni Faleomavaega, who I served with when I was 
on the House side. Sorry we had to keep you. We had a vote, as 
you probably know.
    I would like to take a few moments, Mr. Chairman, to speak 
in support of my bill, S. 1944, which would alter the 
boundaries of both the Black Canyon of the Gunnison National 
Park and the Conservation Area as well. The Black Canyon of the 
Gunnison is really one of the most spectacular sites I could 
possibly describe, not nearly as big as the Grand Canyon, but 
the sheer, colorful walls and the darkness of the gorge from 
which it got the name, the Black Canyon, are really something 
to behold if you are ever in our State.
    I have been personally involved with the canyon literally 
ever since I have been in public office. I introduced the first 
bill 16 years ago when I first got here to change that national 
monument to a national park. It took that many years. In fact, 
until 1999, which I reintroduced I guess about the fifth 
version, and it did finally pass, and President Clinton signed 
into law, so now it is a national park, but this S. 1944 
expands the earlier work by adding 2,725 acres.
    In fact, it adds in that one part of the park and another 
part of the park to the conservation area for a total of about 
5,700 acres, and one of the reasons is because after we 
upgraded it to a national park we found that some enterprising 
people had purchased land around the area and were talking 
about building condos and malls and all the other stuff that 
would really detract from the beauty of the park, if not 
destroy the views itself.
    Now, I understand the BLM has miscalculated the exact 
acreage that we have in the bill, and I think they will make 
some proposed changes, and we will incorporate them at an 
appropriate time.
    S. 1944 also slightly alters the grazing language of the 
1999 bill. The bill before the subcommittee would allow 
partnerships to grace their herds on parkland for the lifetime 
of any partner, and I think that is probably a step in the 
right direction, particularly since the drought in Colorado and 
the fires in Colorado have just literally devastated our 
livestock industry.
    As you know, something like 40,000 people have been put on 
notice on the outskirts of Denver, and a number have already 
evacuated. That is how bad the fires are. Over 100,000 acres 
are burned already, just in the last couple of weeks in 
Colorado. That fire season, of course, is partly due to the 
extreme drought. Our State's snow pack is less than 3 percent 
of the average, and in fact some places are recording zero snow 
level, where there would be in normal times 3 or 4 feet of 
snow.
    Most of our streams have peaked. Most of the irrigation is 
going to be cut off early to those ranchers and farmers who use 
water, so I think that section of the bill is good, but 
considering that severe drought damage, several constituents 
are worried about their ditch rights, how it could be affected 
by this bill, but in my view they probably would not be 
affected, their water rights would be safe, but I am certainly 
willing to introduce an appropriate amendment, and will at the 
appropriate time, to ensure that their rights are preserved, 
and at this time I would like to ask unanimous consent to 
submit three letters for the record that do express those 
points of view.
    Senator Akaka. Without objection.
    Thank you for your statement. Several of our colleagues are 
here this afternoon to speak on behalf of their bills. I want 
you to know that we will include your entire statement in the 
record, so please feel free to summarize as you see fit.
    I would like to call first on my colleague from Florida, 
Senator Bill Nelson, for his testimony.

          STATEMENT OF HON. BILL NELSON, U.S. SENATOR 
                          FROM FLORIDA

    Senator Nelson. Mr. Chairman, thank you so much. I hesitate 
to go ahead of Congresswoman Carrie Meek, because normally what 
we do in the political world in Florida, we always defer to 
Carrie, and I have certainly learned my lesson over the years 
that this is a lady of great wisdom, and she and I actually 
come here to the committee advocating the same thing, so I will 
just make my comments by way of introduction that she could 
then elucidate and give you the further detail, but I am 
pleased that this committee is considering the bill that Bob 
Graham and I introduced, which authorizes the Secretary of the 
Interior to conduct a special resource study of Virginia Key 
Beach for inclusion in the National Park System.
    Carrie is the sponsor in the House, and she has long been a 
champion for this legislation, and there are very specific 
reasons why you need to know about that today and why I wanted 
to come here and appear with the Honorable Congresswoman. This 
companion legislation has already passed in the House last 
April. I would like to submit a letter for the record, if I 
may, from Athley Range, the chairwoman of the Virginia Key 
Beach Park Trust, and it will give additional information, Mr. 
Chairman, and I will give that to your staff.
    Now, this is why I would submit that it is worthy of your 
consideration for inclusion in the National Park System. It is 
a unique key situated just north of Key Biscayne, and just 
south of Fischer Island. It is a 1,000-acre barrier island 
characterized by unique and sensitive natural environmental 
qualities.
    It is nonresidential, and it includes ponds and waterways, 
a tropical hardwood hammock and a large wildlife conservation 
area, but it has a particular reason in addition that you ought 
to consider, because it has a unique history that teaches us 
about the Nation's trauma and the Nation's progress toward 
racial justice, because in south Florida Virginia Key was the 
black beach.
    That was the beach that thousands of African American 
families had to use in the forties and the fifties and the 
sixties for seaside recreation, because we were a segregated 
society and, as a result, it was the site of many baptisms and 
religious services, so, Mr. Chairman, it is holy ground, and 
thus its value to our Nation, to Florida, should be recognized 
both for its natural beauty and its role in the Nation's 
ongoing struggle for equality and social justice, and I would 
urge you all to consider the adoption of this bill and again, 
it is conduct a special resource study of Virginia Key.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for that persuasive 
testimony, and I thank you for your introduction of 
Congresswoman Meek, and with that, let me ask the three of you 
here whether any of you will have to leave soon, to run. If 
not, then I will call on Congressman Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, as Senator Nelson said 
earlier, when Carrie Meek speaks, we listen. I would be happy 
to defer to her for full consideration of this legislation.
    Senator Akaka. Thank you very much, and I thank you for 
recognizing her, and I want to call on Congresswoman Meek for 
your testimony. I have got to tell you, you had a good 
introduction.

      STATEMENT OF HON. CARRIE MEEK, U.S. REPRESENTATIVE 
                          FROM FLORIDA

    Ms. Meek. Thank you very much, Mr. Chairman, and to other 
members of the committee. All of you know me, and I know each 
of you. I am pleased to be here, and I want to thank my 
Senator. I have supported him almost all of his life. He is a 
very young man, considering my chronology he is a very young 
man, so I am pleased to be here and ask this committee to look 
very carefully at this piece of legislation which the Senator 
has brought before you today.
    Virginia Key Beach is not only historically very well 
suited, but it also is environmentally very well-suited. It is 
a place of beauty. It is a place that has the community very 
much interested in it, and by my sitting before you today shows 
you how far we have come in the area of civil rights, when a 
whole area is so important and so concerned about this part of 
our history that they would want the Senate of our country to 
declare it an area, through a resource study to come and look 
at it and see many of its strong assets, and you will find that 
everything that Senator Nelson has said is correct.
    So I am pleased to be here today. Virginia Key is 
beautiful, it is significant, and it is also very important to 
our area. What I like about the Department of the Interior, you 
will hopefully make a resource study, and we are very carefully 
begging you and very carefully and positively optimistic that 
you will see fit to require this study so that we can be on our 
way to having Virginia Key made a national park.
    One other caveat of what we are doing here today is that 
historically there is a paucity of civil rights areas that have 
been preserved by the National Park Service. Research shows 
that there are very few of them out of the entire park system. 
Now the park system is trying its very best to reach segments 
of our society, and they have also noted that there is not as 
much participation that they would like to have from all 
aspects of our community. Virginia Key Beach would be a very 
good reason for helping to open this up and have the resource 
study come there.
    I do hope that Senator Nelson's S. 1312 and my bill, H.R. 
1209, that you will favor this bill very, very positively, 
because you will be making an important step toward recognizing 
that this is a special place, and it does ensure that it will 
be preserved and protected for future generations, and I want 
to thank the committee.
    Senator Akaka. Thank you very much.
    Ms. Meek. I will place the rest of my testimony in the 
file.
    [The prepared statement of Ms. Meek follows:]
      Prepared Statement of Hon. Carrie Meek, U.S. Representative 
                              From Florida
    Chairman Akaka, Ranking Member Thomas and distinguished members of 
the committee, thank you for holding this hearing on Senator Nelson's 
bill, S. 1312, which would authorize the Secretary of the Interior to 
conduct a special resource study of Virginia Key Beach in Miami, 
Florida, for possible inclusion in the National Park System.
    As the sponsor of the companion House bill, H.R. 2109, I am pleased 
to tell you that the House passed my bill on April 30 of this year.
    Virginia Key Beach is an historically important and environmentally 
significant place worthy of being preserved and studied for its 
inclusion in the National Park System.
    Virginia Key Beach was the only beach in Miami where African 
Americans could go to swim in the 1940s, 1950s and early 1960s. It was 
called ``Virginia Key Beach, a Dade County Park for the exclusive use 
of Negroes'' opened on August 1, 1945. Until that time, Miami's beaches 
had been reserved for whites only. In those days of segregation, 
Virginia Key Beach was the only way blacks could legally enjoy the 
ocean in Dade County.
    Dade County created the park in response to the efforts of the 
African-American Community to integrate the beaches in Miami.
    The location of this beach was less than ideal; there was no bridge 
and the only way to get there was by taking a boat from the Miami 
River.
    Despite these impediments, African Americans made Virginia Key 
Beach a thriving center for their social and cultural activities. 
Virginia Key Beach quickly became a cherished getaway, a social 
gathering place, and even a sacred site for religious services.
    The beach was the site for baptisms, courtships and honeymoons, 
organizational gatherings, visiting celebrities and family recreation.
    Even after integration granted everyone a free choice of recreation 
areas, Virginia Key Beach remained the popular preference for many in 
the African American community.
    Mr. Chairman, this legislation is near and dear to my heart because 
I used the park frequently myself and brought my children there when 
they were young. The fact that I am in Congress today shows how much 
society has changed in the intervening years.
    Virginia Key Beach is a national treasure that stands as a monument 
to America's journey toward racial equality. As a reminder of our 
national heritage, Virginia Key Beach symbolizes the struggle of 
African Americans in the 20th Century during the era of racial 
segregation in the South and at the onset of the Civil Rights Movement.
    Mr. Chairman, there are few sites in the National Park System that 
recognize the struggle for civil rights. Out of 385 units currently in 
the Park System, only 4 have been designated to commemorate the Civil 
Rights Era. We need to do more to recognize the Civil-Rights era. It is 
important to remember that segregation affected every aspect of our 
lives--even recreation.
    In addition to representing an important part of the history of 
African Americans in the Southeastern United States, Virginia Key Beach 
also is an exceptional natural resource characterized by a unique and 
sensitive natural environment.
    The beach is part of Virginia Key, a 1,000-acre barrier island. 
Although there has been some limited development, the island is non-
residential and includes ponds and waterways, a tropical hardwood 
hammock, and a large wildlife conservation area.
    The Key is home to more than 25 species of birds during the winter, 
while its shallow waters contain extensive grass beds that support 
manatees, young sea turtles, and many juvenile fishes.
    The U.S. Army Corps of Engineers, through their Shoreline Damage 
program, is currently restoring the beach and native plants on the 
island.
    Finally, let me note Virginia Key Beach's excellent location and 
its outstanding accessibility. Other national attractions in South 
Florida, such as Everglades National Park, Big Cypress and Biscayne 
National Park are extraordinary resources, but they are not readily 
accessible for individuals without personal transportation.
    Virginia Key is accessible. There is a good Miami-Dade Metro Bus 
connection that is further enhanced by a link to South Florida's Metro 
Rail.
    Mr. Chairman, Virginia Key Beach occupies a special place in the 
heart of all of us from South Florida. Its value to the nation and to 
Florida is based not just on its natural beauty, but also as a symbol 
of the ongoing struggle of African Americans for equal rights and 
social justice.
    S. 1312, and my bill, H.R. 2109 will take an important step toward 
recognizing this special place and ensuring that it will be preserved 
and protected for future generations.
    Please move this bill to the floor and pass it as soon as possible, 
so that it can go to the President's desk before this Congress 
concludes.
    Thanks again for holding this hearing.

    Senator Akaka. I understand, Senator Nelson, that Senator 
Graham has a statement for the record, and what I will do is, 
without objection, put that in the record.
    [The prepared statement of Senator Graham follows:]
    Prepared Statement of Hon. Bob Graham, U.S. Senator From Florida
    Thank you Chairman Akaka and Ranking Member Thomas for conducting 
this hearing on S. 1312. This bill, sponsored by Senator Nelson of 
Florida, would authorize a special resource study of Virginia Key Beach 
for possible inclusion in the National Park System. A House companion 
bill, H.R. 2109, sponsored by Representative Carrie Meek, has passed 
the House with amendments.
    The National Park Service preserves our nation's cultural and 
natural heritage, and Virginia Key Beach provides us with an 
opportunity to consider adding a site significant in our nation's 
heritage.
    Virginia Key Beach was opened in August 1945, by a group of African 
American men in violation of a Dade County law. Led by Judge Lawson 
Thomas, the group staged a ``wade in'' at the whites-only Haulover 
Beach. The county decided that instead of prosecuting these men for 
this act of civil disobedience, they would establish a beach on 
Virginia Key.
    Initially, the county lived up to its commitment of ``separate but 
equal facilities'' and constructed many of the same facilities that 
were available at the whites-only park including cabanas, a carousel 
and mini-train, dance platform, snack bar, and bath houses. Although 
access to the beach was available only by ferry from a dock located on 
the Miami River, Virginia Key Beach became a very popular and important 
gathering place for South Florida's African-Americans.
    The park provided a number of entertainment and recreation 
opportunities but also played a cohesive role in the entire black 
community. African-Americans from all social classes and neighborhoods 
gathered there for baptismals, church gatherings, and community 
recreation. There is even historical evidence to suggest that it was a 
gathering place for African-Americans as early as 1918. The 
documentation for nominating the site to the National Register of 
Historic Places is currently being prepared.
    In addition, Virginia Key Beach is part of a larger natural 
ecosystem that is worthy of conservation. The beach is on the 1,000 
acre barrier island of Virginia Key. The island remains largely 
undeveloped and has a number of ponds, waterways, and forested areas. 
Virginia Key's ecosystem supports sea turtles, manatees and wide range 
of migratory birds and wildlife, and a portion of Virginia Key is 
managed by the Florida Fish and Wildlife Commission as a Critical 
Wildlife Area.
    Virginia Key Beach provides us with the unique opportunity to 
preserve a site significant in the history of segregation and the 
struggle for civil rights in our nation, within a larger natural 
ecosystem that conserves our nation's natural heritage.
    Thank you again, Mr. Chairman for conducting this hearing and for 
the opportunity to submit a statement for the record.

    Senator Nelson. He is chairing the Intelligence Committee 
right now. That is why he could not be here, but he does have a 
comment for the record. Thank you, Mr. Chairman.
    Senator Akaka. I also want to say, Senator Nelson and 
Congresswoman Meek, you may be excused if you need to go.
    Senator Nelson. Thank you so much.
    Senator Akaka. I would like to call on Congressman 
Faleomavaega from Samoa for your testimony.

           STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, 
                  DELEGATE FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
you and distinguished members of this subcommittee for giving 
consideration to the bill that I had sponsored, H.R. 1712, 
which authorizes the Secretary of the Interior to make 
adjustments in the boundary of the National Park of American 
Samoa, and I certainly want to extend to you, Mr. Chairman, my 
warmest aloha, and thank you for your continued support, and I 
would be remiss if I did not also express my good wishes and 
welcome and thank you to the distinguished Senator from 
Wyoming, a dear friend, former member, and colleague of the 
House of Representatives, the other body, if you will, and 
certainly my good friend Ben Campbell from Colorado.
    As you know, Mr. Chairman, years ago Tip O'Neill had a rule 
in the House. He authorized only two members to wear Indian 
ties, and that is Ben Campbell and me, and I am still wearing 
my Indian tie right now.
    But truly, Mr. Chairman, this bill is noncontroversial. It 
has bipartisan support, and personal thanks on my part to the 
gentleman from Utah, Mr. Hansen, our chairman and the Ranking 
Democratic member, Mr. Rahall from West Virginia, for their 
full support. This legislation passed the House a couple of 
weeks ago, and now it is before your consideration.
    Mr. Chairman, 4 years ago I received a request from the 
Council of Chiefs, principally of the villages of Sili and 
Olosega, on these islands of Ofu and Olosega, to include 
portions of their village lands within the National Park of 
American Samoa. The chiefs noted the important role the park 
plays in preserving the natural and cultural resources of the 
territory, and indicated that the village councils believe 
there are significant cultural resources on village lands which 
warrant consideration for addition to the park.
    The National Park Service researchers did an excellent job 
to conduct their survey, and they discovered that on top of 
this particular island of Olosega--as you see, Mr. Chairman, 
these two islands are about 60 miles away from the main 
island--there were several acres, probably over 100 acres of 
medicinal plants that were planted by Samoans, and nowhere else 
found in the Pacific region. Those medicinal plants are found 
there as part of their conservation and use for agricultural 
and certainly for medicinal purposes, and that leads me to my 
next point, Mr. Chairman.
    The National Park in American Samoa is very unique and 
important. One of the world's most renowned ethnobotanists, Dr. 
Paul Cox, who is currently the director of the National 
Tropical Botanical Garden on the Island of Kauai in the State 
of Hawaii, conducted a series of research studies of over 
several hundred of ancient Samoan medicinal plants, and one of 
these plants, a substance called protastine now has been 
discovered. It has been found that protastine may have 
beneficial properties for the treatment of HIV/AIDS.
    About 2 months ago in my district, I was privileged also to 
host one of the world's most renowned marine ocean scientists, 
Dr. Sylvia Earl, and believe it or not Dr. Earl in her 
seventies continues to explore the ocean as a scuba diver, and 
in doing so found that one of the rarest giant clams in the 
world can only be found in the Samoan Islands.
    By the way, Mr. Chairman, one of my colleagues the other 
day introduced me as the gentleman from Somalia. Respectfully, 
it is Samoa, and not Somalia.
    Mr. Chairman, I submit the park has bipartisan support both 
from my Democratic and Republican colleagues in the House and, 
I respectfully submit, your positive and hopefully favorable 
approval of this proposal, and I want to say also that I am 
very grateful that the administration has not raised any 
serious objections to the proposed park, as I am sure my good 
friend Mr. Smith will testify to that effect.
    I gave Mr. Smith the Samoan treatment. He will be very 
positive in his presentation concerning this little park. I 
have 26 Samoan NFL players right now that will be helping Mr. 
Smith to make sure that he will give full assurances that my 
little park on the little islands out there is going to have 
the approval of the Congress as well as President Bush.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Faleomavaega follows:]
    Prepared Statement of Hon. Eni F.H. Faleomavaega, Delegate From 
                             American Samoa
    Mr. Chairman: I want to thank you for holding this hearing on H.R. 
1712--a bill which would authorize the Secretary of the Interior to 
make minor adjustments to the boundary of the National Park of American 
Samoa. I extend to you my warmest alohas and thank you for your 
continued support.
    I also want to thank my good friend from Wyoming, Senator Craig 
Thomas, Ranking Member of the Subcommittee, for his continued 
sensitivity to the needs of American Samoa. I would also like to thank 
both the Republican and Democratic House Leadership, the gentleman from 
Utah (Mr. Hansen) and the gentleman from West Virginia (Mr. Rahall), 
our full committee leaders, and the gentleman from California (Mr. 
Radanovich) and the gentlewoman from the Virgin Islands (Mrs. 
Christensen), of the House Subcommittee on National Parks, Recreation 
and Public Lands, for their support of this legislation.
    Mr. Chairman, the U.S. Territory of American Samoa is located 
approximately 2,400 miles southwest of Hawaii. The national park in 
American Samoa is located on three separate islands: Tutuila, Ofu and 
Ta'u. The islands of Ofu and Olosega, portions of which would be added 
to the park under this legislation, are small islands which lie 
adjacent to each other.
    In 1998, I received a request from the village chiefs of Sill and 
Olosega to include portions of their village lands within the National 
Park of American Samoa. The chiefs noted the important role the park 
plays in preserving the natural and cultural resources of the 
Territory, and indicated that the village councils believed there are 
significant cultural resources on village lands which warrant 
consideration for addition to the park.
    About 2 years ago, I asked the National Park Service to conduct 
studies to determine if there were resources on the island which 
warranted inclusion in the park. The Park Service completed 
reconnaissance surveys of the island of Olosega and of a portion of the 
island of Ofu, and reported on both. The Service concluded in part:

          ``The archaeological significance of [Olosega Island] cannot 
        be understated. Sites on the ridgeline and terraces may offer 
        an important opportunity for the study and interpretation of 
        ancient Samoa. The number and density of star mounds (31), the 
        great number of modified terraces (46) and home sites (14), the 
        subsistence system, and the artifacts available are all 
        important findings. This is particularly significant in that 
        they were recorded in only 3 days of visual surveys on only a 
        portion of the island.''

    The National Park Service researchers also discovered that on top 
of this particular island of Olosega were several acres of medicinal 
plants that are found nowhere else in the Samoan islands. This leads me 
to my next point, Mr. Chairman. The national park in American Samoa is 
both unique and important.
    One of the world's most renown ethnobotanists, Dr. Paul Cox, who is 
currently the director of the National Tropical Botanical Garden on the 
island of Kauai in the State of Hawaii, conducted a series of research 
and studies of several of the ancient Samoan medicinal plants. From one 
of these plants a substance called protrastin has now been discovered. 
It has been found that protrastin may have beneficial properties for 
the treatment of HIV/AIDS.
    About two months ago, my district was privileged to host one of the 
world's most renown marine ocean scientists, Dr. Sylvia Earle. Believe 
it or not, Dr. Earle continues to explore the ocean as a scuba diver, 
and in doing so, found that one of the rarest giant clams in the world 
can only be found in the Samoan islands.
    Mr. Chairman, the National Park of American Samoa continues to grow 
in importance. Established in 1988 by Public Law 100-571, the park took 
several years to become operational. Today, however, tourists are 
visiting and school teachers are using the park as an educational 
resource to help the students learn more about Samoan history and 
culture, the environment, and ecological conservation. The park is 
preserving the area within its boundaries, but as the population 
grows--there was a 22% increase from 1990 to 2000--considerable 
pressure is being placed on other undeveloped areas.
    The additions proposed by this legislation will preserve important 
sections of the remaining natural and cultural resources of the 
Territory. Again, because of the unique and historical significance of 
this park, I ask my colleagues to support H.R. 1712.

    Senator Akaka. Thank you very much for your interesting 
testimony. I also want to permit you to--in case you need to 
leave, you may be excused.
    Let me call on Hon. Zach Wamp, Congressman, for your 
testimony.

       STATEMENT OF HON. ZACH WAMP, U.S. REPRESENTATIVE 
                         FROM TENNESSEE

    Mr. Wamp. Thank you very much, Mr. Chairman. These are 
tough acts to follow here. Senator Thomas and Senator Campbell, 
and a word to the other members of the subcommittee and the 
full committee of appreciation for this opportunity. I want to 
say thank you very much.
    I was going to even say hallelujah, until Senator Thomas 
reminded me in his opening statement that there is so much 
tough lifting left to do that I should hold and reserve the 
hallelujah until a later point, but I have a written statement 
and I want to submit it for the record. I am not going to read 
it, but I hope you will, and I just want to make three brief 
points today, particularly in light of the challenges we still 
face on H.R. 980.
    First of all, I am convinced, Senator Thomas, that if all 
100 Senators could do what Park Service Director Fran Minella 
had the opportunity to do last month, and that is come and 
spend a day in Chattanooga, and I know it is not possible, but 
if they could understand the 12,000 years of human history on 
the Bend and understand the ancient burials there of people 
upon people upon people, literally stacked on top of each 
other, and understand the scope, I think they would feel the 
historical burden and obligation that I now feel to do what is 
right.
    It should have been done a long time ago, before that 
hospital was built there, but it was not, but that does not 
mean it should not be done now, and that we should not work to 
try to resolve these nonconforming uses, and I thank Director 
Minella for coming and taking the time to experience the Bend 
and understand the history of the Bend, and I hope through this 
process that Senators can come to understand it as well, as 
much as possible without going there, but I honestly believe 
that if every Senator could be there and understand this and 
feel it, and also understand that in these 900 acres the 
footprints of these, quote, nonconforming uses are the 
exception and not the rule--it is a vast area mostly of 
vegetation and wildlife and not of a lot of different physical 
problems, but they are real problems that we need to work 
through, and we are willing to negotiate and willing to 
compromise, as long as we do not run over local government. 
That is the first point.
    The second point is, this is complicated, but as the study 
says, it is so nationally significant that it calls us, I 
think, to this obligation. You are going to hear Jay Mills come 
and testify later to the anthropology and the history and the, 
really, 11 important time frames in history that this Bend 
represents, and the study clearly points out there are few 
places like this in this country where you can go back to 
Paleo-Indians and the hunting of mastodon on this very track, 
all the way through the Spanish movement and the early American 
Indians, and then the civil war being fought there, and it is 
such a collage of human history, all on this 900-acre 
footprint, that it deserves standing in our history, in our 
interpretation of who we are, and where we have been.
    And then thirdly I just want to say, this is an important 
initiative for our city. We have transformed our city in the 
last 15 years. The word Renaissance does not even come close to 
discussing what has happened in Chattanooga. That word is 
overused. You have to come to see. We have reclaimed our river. 
We have reclaimed our history. There are people on the river 
all the time.
    This addition to the National Park Service is a piece of 
our future that we have built widespread consensus for, both 
newspapers, liberal, conservative, the city council, the county 
commission, the State of Tennessee, all willing contributors of 
land and resources into this proposal, widespread public 
support, citizen action groups, but this was a process of 
taking the study, building consensus, coming up with a 
compromise plan that does phase certain things out over time, 
with a goal of trying to restore the Bend over time, without 
violating some of local government's needs, like an immediate 
closure of the hospital, which would potentially disrupt the 
services for the mental health community there, or law 
enforcement, where a lot of people who are incarcerated are 
sent there, and so, until there is another facility built in 
our county, we should not force those closures.
    So I would just appeal to the Senate to say, we got through 
the House, working through these problems and finding a way to 
make some changes which were made. The House bill was amended 
on several fronts. We would ask you to please consider 
amendments, consider reasonable compromises so that we can keep 
local government with us through this process, but also not 
miss this historic opportunity that we have worked so hard for 
over a number of years.
    Because time is of the essence, obviously, we really 
appreciate the Senate taking this bill under consideration here 
today, and I would just say in closing that where there is a 
will there is a way, and I just ask today, please, for your 
willingness to work with us to see this bill through the 
process to the Senate floor at some point this year.
    I have spoken with the administration, I have spoken with 
the President himself about this piece of legislation. I 
understand there is a moratorium, but I also understand that 
there are exceptions that might be made, including on this bill 
if we can reach a compromise in the Senate, and I am sure that 
the House will take the Senate amendments and the Senate 
compromises quickly back through the House.
    Thank you very much for the courtesy of this day, and 
Senator Thomas, I promise you we will bend over backwards to 
try to meet the concerns you have raised and that you will 
continue to have.
    [The prepared statement of Mr. Wamp follows:]
       Prepared Statement of Hon. Zach Wamp, U.S. Representative 
                             From Tennessee
    Chairman Akaka, Ranking Member Thomas and members of the 
Subcommittee:
    I want to thank you for this much appreciated opportunity to 
testify before you today on H.R. 980, a bill to establish the Moccasin 
Bend National Historic Site in the State of Tennessee as a unit of the 
National Park System. This bill is bipartisan and includes the nine 
House members from the State of Tennessee and Congressman Nathan Deal 
of north Georgia as original cosponsors. On October 23 of last year, 
the House unanimously passed H.R. 980 with amendments.
    The process to develop H.R. 980 has been one of consensus building 
and compromise and I expect that throughout this process it will 
continue to be. However, there has never been a point since I have been 
involved in preserving Moccasin Bend that we have had this much support 
for adding Moccasin Bend into the National Park system. I believe we 
have a good compromise that has taken all views into account throughout 
this process. This wide range of support for passage of H.R. 980 
includes the City of Chattanooga, Hamilton County, the State of 
Tennessee, the Inter-Tribal Council of the Five Civilized Tribes 
Cultural Preservation Committee, the Friends of Moccasin Bend, the 
Cherokee Nation, and both editorial boards of the Chattanooga Times 
Free Press; who seldom agree on anything.
    You may be interested to know that one year ago today, the House 
Subcommittee on Parks held the first hearing in decades on the idea of 
adding Moccasin Bend to the National Park system. This was a monumental 
move for those that have worked so diligently to see Moccasin Bend 
preserved. This is the first time in decades that a Committee has 
revisited the merits of adding Moccasin Bend into the National Park 
System. I will defer to Jay Mills, the vice-president of the Friends of 
Moccasin Bend, to explain in detail through his testimony the history 
and importance of adding this into the National Park system. However, I 
would like to point out that in 1950, Congress enacted legislation that 
authorized the Secretary of the Interior to accept a donation of no 
more than 1,400 acres of Moccasin Bend to Chickamauga and Chattanooga 
National Military Park. Then Governor Frank Clement, however, vetoed 
the $100,000 appropriation to move the proposal forward and 
unfortunately today we live with the several ``nonconforming'' uses 
that need to be transitioned over in their original condition. The site 
was also listed on the National Register of Historic Places in 1984 and 
in 1986, a 956-acre area was designated as the Moccasin Bend 
Archeological District National Historic Landmark.
    In 1998, Congress appropriated funds, and the National Park Service 
conducted a feasibility study that determined that Moccasin Bend holds 
nationally significant archeological and historical resources. This 
study discussed many alternatives but only had two viable 
alternatives--leave the Bend as is or include it as a separate unit of 
the National Park System. The NPS study describes many of the ``Threats 
to the Resources'' that are included in the Bend. The two most 
controversial areas on the Bend have been the Moccasin Bend Mental 
Health Institute and the Moccasin Bend Golf Course. During ongoing 
discussions with all parties involved, I think we have brokered two 
very well thought out compromises that now receive broad support across 
the State and nation.
    Also, in H.R. 980 there are two privately owned parcels of land. 
Both the Rock-Tenn parcel and the Serodino and Klimsch property are 
owned by willing sellers that would like their property to be part of 
the park. I have and will continue to work in my capacity as a member 
of the Interior Appropriations Subcommittee to include the necessary 
funding in the National Park Services Land and Water Conservation Fund 
to purchase these two properties, subject to the enactment of H.R. 980.
    I know that this Subcommittee and the National Park Service have 
some concerns about H.R. 980 since the bill doesn't include all of the 
Park Service's recommendations and that there are some other uses on 
the Bend that must also be addressed. However, I believe that as this 
bill moves through the legislative process that we can address these 
concerns adequately, to this Subcommittee and the Park Service without 
losing the local grassroots support for adding Moccasin Bend to the 
park system.
    President Bush's initiative to eliminate the deferred maintenance 
backlog should be commended. I look forward to working with this 
Administration on this initiative throughout the appropriations 
process. For the last five years on the Interior subcommittee, I have 
also worked to reduce the backlog and to find creative ways like the 
``Fee Demonstration'' program to fund needed improvements. But the time 
to add Moccasin Bend to the park system is now. From the early native 
Americans to Hernando de Soto on his way to the Mississippi; from the 
Cherokees beginning the Trail of Tears to the brave soldiers of the 
Civil War--the history of ``The Bend'' calls us to action now. We must 
do both--preserve nationally significant places like Moccasin Bend and 
responsibly deal with the backlog of maintenance needs at our national 
treasures.
    In closing, I would urge the Subcommittee to move forward on H.R. 
980. I stand ready to work with you, Chairman Akaka and Senator Thomas, 
and the other members of the subcommittee to make sure that we perfect 
this bill as it moves through the legislative process.
    Thank you for the opportunity to testify today, and I look forward 
to any questions you may have.

    Senator Akaka. Thank you very much, Congressman Wamp, for 
your testimony.
    I was just going to ask if the other members had any 
questions.
    Senator Campbell. Mr. Chairman, I had one, maybe a couple. 
I might tell you every NFL team benefits from Samoa, not just 
the ones you mentioned, but I did hear you say the chiefs of 
two villages wanted to have their communities within the 
boundaries of this area, is that right? What if there is any 
liability problem, or access problem, or right-of-way problems 
or anything else?
    Mr. Faleomavaega. Senator Campbell, the National Park of 
American Samoa is probably the most unique park ever devised in 
the hands of the Congress. The lands in American Samoa are 
basically what are known as communal lands. There is no fee 
simple status as far as western legal standards are concerned, 
so what we have arranged when we passed this legislation in 
1988 was to allow the villages of these communal lands to be 
leased on a 55-year basis, subject to renewal by the Federal 
Government, and this is the basis of how we establish this land 
relationship between the village councils and the Federal 
Government.
    In other words, the additional acres in this land is on a 
lease basis, and that for the purpose of protection the 
villages are allowed to do farming, to do as if in the most 
traditional way, so that at the same time there is conservation 
of the makeup, and by the way, it is one of the few acres of 
the United States where the rain forest is also established in 
this area, so it is for preservation as well as for 
enhancement, and what we are hoping to see is the value of 
medicinal plants that my forefathers had used, that there could 
be some major breakthroughs where they could do agricultural 
planting of these medicinal plants that may be of value to our 
country as far as health concerns.
    Senator Campbell. I am supportive of the legislation, Mr. 
Chairman, but while I was listening to Eni speak I was reminded 
just myself that the Mesa Verde National Park, which is a big 
one in our State, there is a road that goes in the park, and 
then it loops out just for a few feet and goes through the Ute 
Indian Reservation and back into the park.
    About 8 or 9 years ago some of the tribal members decided 
that they should charge a toll, and they went out and closed 
the darned road, and boy, did that create a big headache for me 
when the phone calls started coming in that some of my brothers 
were out there with a barricade preventing people from getting 
to the national park, and so I question if there is any 
problems down the road somewhere.
    Mr. Faleomavaega. I can assure the good Senator that will 
not happen in Samoa.
    Senator Campbell. You can get some of your relatives who 
might be linemen out there to straighten it out.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you. Any questions?
    Senator Thomas. I think not. I would just say, I hope you 
enjoyed your trip to Wyoming sometime back.
    Mr. Faleomavaega. I look forward to going to Wyoming again, 
Senator Thomas.
    Senator Thomas. Wear your cowboy boots when you come.
    Mr. Faleomavaega. And I do hope to wear cowboy boots one of 
these days. As you know, Senator, I am still wearing sandals. I 
am still learning how to use suits and ties and pants and all 
of that stuff.
    Mr. Chairman, I submitted for your consideration the 
national park calendar for the members to look at the photo--
the center photo happens to be our national park--for my 
distinguished friends to see, and Mr. Chairman, this is the 
appearance of the map where the national park boundaries are 
and what we are hoping to achieve in this legislation, and Mr. 
Chairman, if my chart and that calendar is returned, that means 
favorable consideration. If I do not get it back, that means 
you trashed it, and I will be very sad if this bill does not 
pass the Senate, Mr. Chairman.
    Senator Akaka. So you want it back?
    Mr. Faleomavaega. Absolutely, but thank you, Mr. Chairman.
    Senator Akaka. Thank you very much. I just want to ask you, 
if I remember correctly between Ofu and Olosega there is a 
bridge that connects the two islands, is that correct?
    Mr. Faleomavaega. Yes. That very tip there is about 100 
yards, and there is a bridge that connects, and I usually go 
fishing in that area, and I invite the good Senators to join 
me. It is excellent fishing. Underground, above-ground, 
anywhere you want, you will get the fish. But that is the 
bridge that puts the two islands together.
    Senator Akaka. Thank you.
    Mr. Wamp. Mr. Chairman, let me just add, the staff has 
provided for you a picture with some of the historical 
characteristics of the Bend here which are really unique, and I 
just want to make sure you each have that. Thank you very much.
    Senator Akaka. Thank you. That is very informative.
    Senator Campbell. Zach, whose responsibility is it to 
relocate these things like the golf course and the hospital if 
all that stuff has to be moved? Does the State do that, or is 
that going to be something the Federal Government will be asked 
to do?
    Mr. Wamp. The legislation would call for the State and the 
local government that would be conveying the land free to 
actually turn it over in a clean condition, and certainly the 
State, while our State has budget problems right now and really 
does not want to address any future obligations at this moment, 
they recognize that whenever the mental hospital, for instance, 
is closed, that it would be taken down and returned to its 
original condition at the expense of the State, and that the 
local government would have a number of years to take the 
firing range and the nonconforming uses and clean them up as 
well and turn them over to the Federal Government, and it is a 
shared responsibility.
    The Federal Government would, as Senator Thomas points out, 
riprap the bank because we are losing the burial grounds to 
erosion on the Tennessee River, and make significant expenses, 
but the local government would also be making significant 
expenses, and at this point there is an indefinite agreement, I 
think the park will testify, on the golf course, that it would 
remain as a public golf course until the city no longer uses it 
as a municipal golf course, and then it can be taken by the 
Secretary of the Interior.
    That was a compromise that we struck on the House side 
through the process, where the committee made that 
recommendation and we said that is agreeable, that whatever 
time it is no longer a municipal golf course run by the city 
and the county, it can be taken by the Secretary of the 
Interior without further legislation, so there is an agreement 
or a compromise really that has been reached on all of these 
fronts, but we are willing to negotiate further on any 
reasonable recommendations that the Senate may have, and thank 
you, Senator.
    Senator Campbell. Thank you. Thank you, Mr. Chairman.
    Senator Akaka. Thank you. If there are no further 
questions, thank you very much. You are excused. Thank you for 
your testimony.
    I would like to have Mr. Daniel Smith, Special Assistant to 
the Director of the National Park Service, to come to the 
table. Mr. Smith, welcome to the subcommittee. We will include 
your written statement in the record in its entirety, so please 
feel free to summarize your remarks, and when you are ready, 
please proceed with your testimony on all of the bills and then 
we will return to you for questions.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
                DIRECTOR, NATIONAL PARK SERVICE

    Mr. Smith. Mr. Chairman, thank you. It is a pleasure to 
appear before your committee today on these bills, and I will 
summarize for the record, and obviously submit them in full.
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1257 and H.R. 107. The 
Department supports this legislation if amended in accordance 
with this testimony, as we believe that it is wholly 
appropriate for the National Park Service to undertake a study 
that will help ensure that the history of the Cold War era is 
preserved for future generations of Americans.
    However, the administration did not request funding for 
this study, or any other national historic landmark theme 
study, for the fiscal year 2003. These studies may identify 
sites that may be appropriate candidates for special resource 
studies, but the studies themselves do not evaluate sites for 
possible addition to the National Park System. Therefore, theme 
studies do not have the potential to lead directly to new 
operation, maintenance, and other costs for the National Park 
Service.
    Although S. 1257 and H.R. 107 as passed by the House are 
very similar, there are some important differences between the 
two. As introduced, both H.R. 107 and S. 1257 included a 
provision requiring the Secretary to establish a Cold War 
Advisory Committee to assist with the study. At our request, 
the House deleted this provision from H.R. 107. Whether this 
committee acts on H.R. 107 or S. 1257, we strongly recommend 
that the advisory commission be omitted. In our view, such a 
committee is unnecessary and would add greatly to the cost of a 
study and time required to complete it due to the legal 
requirements of the Federal Advisory Committee Act.
    Another difference between S. 1257 and H.R. 107 is a 
provision requiring the inclusion in the study of 
recommendations on the suitability and feasibility of 
establishing a central repository for Cold War artifacts and 
information. This provision is found in H.R. 107, but not in S. 
1157. We urge that this provision, which is section 1, 
subsection (b)(1)(C) of H.R. 107, be omitted from the 
legislation reported by this committee.
    Mr. Chairman, that concludes my statement on S. 1257 and 
H.R. 107.
    On S. 1312 and H.R. 2109. These bills would authorize the 
Secretary of the Interior to conduct a special resource study 
of Virginia Key Beach in Biscayne Bay, Florida, where a 
recreational community for African Americans flourished at a 
time when nonwhites were prohibited from using other beaches in 
the Miami area.
    The Department supports both bills, but we prefer H.R. 2109 
as passed by the House on April 30, for reasons explained later 
in this testimony. However, we did not request additional 
funding for this study in fiscal year 2003. We recommend that 
the committee approve the language used in H.R. 2109 as passed 
by the House, rather than that used in S. 1312. H.R. 2109 was 
amended by the House to change the name of the area to be 
studied from ``Virginia Key Beach,'' to ``Virginia Key Beach 
Park.''
    Although the names have been used interchangeably, using 
the term ``Virginia Key Beach Park,'' helps clarify that the 
study is focused on the 77 acre recreation site and does not 
include the entire beach of Virginia Key. It is also consistent 
with the name that is being used for the site in the nomination 
for the National Register of Historic Places.
    Mr. Chairman, that concludes my statement on H.R. 2109 and 
S. 1312.
    Mr. Chairman, thank you for the opportunity to present the 
Department of Interior's views on S. 1944, a bill to revise the 
boundary of the Black Canyon of the Gunnison National Park and 
Gunnison Gorge National Conservation Area in the State of 
Colorado and for other purposes.
    The Department of the Interior supports S. 1944. The bill 
authorizes additions to both Black Canyon of the Gunnison 
National Park through three separate easement or exchange 
transactions, and Gunnison Gorge National Conservation Area.
    The revision of the national park boundary would not 
contribute to the National Park Service maintenance backlog 
because the maintenance--excuse me, Mr. Chairman, because the 
management and operation of the land added to the boundary 
would not result in any additional facilities, increased 
operating cost, or additional staffing. One parcel would be an 
equal value exchange, another would involve the purchase of the 
conservation easement on 240 acres, and a third involves the 
transfer of 480 acres of isolated Bureau of Land Management 
land to the National Park Service, and then the exchange of 
this parcel for a conservation easement on approximately 2,000 
acres. The private landowner is expected to donate the 
difference in value as a result of this last exchange.
    S. 1944 also amends Public Law 106-76 to clarify grazing 
privileges within the park. If land authorized for grazing 
within the park is exchanged for private land, then any grazing 
privileges would transfer to the private land that is acquired. 
Also, the bill clarifies the length of time that grazing may be 
conducted on parklands by partnerships.
    S. 1944 would amend Public Law 106-76 to treat partnerships 
similarly to individual permit-holders, allowing permits to be 
renewed through the lifetime of the partners as of October 21, 
1999.
    S. 1944 also provides for the expansion of the Gunnison 
Gorge NCA, managed by the BLM. A 5,759-acre parcel of land on 
the north side of the existing NCA has been acquired from a 
willing seller through a land exchange. The legislation also 
makes some minor boundary adjustments to the NCA. In order to 
resolve these issues with the local landowners in a fair and 
equitable manner, slight boundary modifications need to be made 
so that the exchanges can be effected.
    Since S. 1944 was introduced, the BLM has discovered an 
additional trespass, and we would like the opportunity to work 
with Senator Campbell and the subcommittee to modify the map 
before markup.
    This concludes my testimony on this bill.
    On H.R. 38. This bill provides for additional lands to be 
included within the boundaries of Homestead National Monument 
of America in the State of Nebraska. The Department supports 
the enactment of H.R. 38 as passed by the House. Funding to 
acquire the privately owned properties was included in the 
fiscal year 2001 Interior Appropriations Act, and we anticipate 
that management of the acquired lands can be accomplished with 
existing park resources.
    The total amount of land to be added is approximately 33 
acres. The private landowners affected have agreed in principle 
to this proposed legislation, and the State of Nebraska has 
agreed as well to donate its lands as provided in the bill.
    Mr. Chairman, the Department supports enactment of H.R. 38, 
as passed by the House, and we thank you for the opportunity to 
testify on the bill today.
    That concludes my statement on H.R. 38.
    Mr. Chairman, thank you for the opportunity to present the 
Department of Interior's views on H.R. 980, which would 
establish the Moccasin Bend National Historic Site in 
Chattanooga, Tennessee as a unit of the National Park Service.
    The Department recommends that the committee defer action 
on this legislation during the remainder of the 107th Congress. 
The Department has reviewed our progress on the President's 
initiative to eliminate the deferred maintenance backlog, and 
it is clear that we need to focus our resources on caring for 
existing units of the National Park System. For this reason, 
the Department will only support new designations that involve 
no new cost or minimal cost to the Federal Government for land 
acquisition, operation, and maintenance.
    In addition, with respect to this particular proposal, the 
Department has concerns with some of the provisions of H.R. 980 
and has some recommendations for amendments to address the 
National Park Service's ability to ensure the long-term 
protection of the resources and to accommodate public use at 
Moccasin Bend. H.R. 980, as passed by the House, would 
authorize the land within the boundary of the National Historic 
Site to be acquired by donation, exchange, or purchase from 
willing sellers.
    It provides that the Secretary of the Interior may accept a 
donation of the Moccasin Bend Mental Health Institute, one of 
the two major incompatible uses at Moccasin Bend, only after 
the facility is no longer used to provide health care services, 
except for any land the State determines is excess to the needs 
of the facility.
    The legislation excludes from the boundary of the National 
Historic Site the part of the archaeological district that is 
currently leased for a golf course, the other major 
incompatible use, but it does allow the Secretary to acquire 
the golf course if it ceases to be used for that purpose.
    The study also found that the Moccasin Bend Archaeological 
District met the test of suitability for a unit of the National 
Park Service in that it represented a theme or resource that is 
not already adequately represented in the National Park System, 
nor is comparably represented and protected for public 
enjoyment by another land management entity. With respect to 
the test for feasibility, however, the study found that certain 
conditions needed to be met for the area to be considered 
feasible as a new unit of the National Park System. The 
facilities within the archaeological district that are 
incompatible with the park include the Moccasin Bend Mental 
Health Institute, a public golf course, radio towers, a law 
enforcement firearms training range, and a model airplane 
facility.
    Since H.R. 980 was first introduced, the National Park 
Service has been engaged in discussions with the legislation 
sponsor, Representative Zach Wamp, and with Senators Fred 
Thompson and Bill Frist, to address these incompatible uses in 
a way that avoids a sudden disruption in existing activities, 
yet assures that in time there would be a viable unit of the 
National Park Service at Moccasin Bend.
    Our support for H.R. 980 is contingent upon amending it to 
provide that the establishment of the site would occur only 
after certain requirements related to land transfers and 
operational issues are met. Briefly, these would include:
    One, receiving from the State the land it owns within the 
archaeological district, except that needed to operate the 
Moccasin Bend Mental Health Institute;
    Two, receiving from the State the donation in escrow of the 
remainder of the land it owns in the archaeological district 
containing the Moccasin Bend Mental Health Institute;
    Three, receiving from Hamilton County and the city of 
Chattanooga the donation of the land they own within the 
archaeological district, except for land used for the golf 
course, the law enforcement firearms training range, and the 
model airplane facility;
    Four, receiving from Hamilton County and the city of 
Chattanooga a written commitment to transfer to the United 
States the land used for the law enforcement firearms training 
range and the model airplane facility within 5 years of 
enactment of the legislation, and to transfer the golf course 
to the United States if that is no longer used for that 
purpose; and
    Five, the signing of a memorandum of agreement by the 
State, the county, the city, and the Secretary of the Interior 
that addresses issues of mutual concern operating a national 
historic site at Moccasin Bend.
    In addition, the administration has concerns about the cost 
of removal of hazardous waste and the restoration of the 
transferred land to resemble the area's 1950 appearance. We 
would like to work with the State, the county, the city, and 
this committee to address those concerns. We believe that the 
legislation should list the three primary themes that would be 
interpreted at this site, American Indian settlement, the Civil 
War Siege of Chattanooga, and the Trail of Tears.
    One option that has been raised as an alternative to 
amending the legislation as described above would be to obtain 
written commitments from the State, the county, and the city 
for these actions. The committee may want to consider that 
option and, if such commitments could be secured prior to 
reporting the legislation, the Department of the Interior would 
work with these entities to achieve that purpose.
    Mr. Chairman, that concludes my statement on H.R. 980.
    Senator Akaka. Mr. Smith, if you can summarize H.R. 1712, 
we would appreciate that.
    Mr. Smith. Yes sir. H.R. 1712 will provide authority for 
the Secretary of the Interior to adjust the boundary of the 
National Park of American Samoa to include up to approximately 
1,000 acres of land on the Island of Olosega and approximately 
450 acres on the Island of Ofu, and approximately 1,500 acres 
of ocean waters off-shore of Olosega and Ofu.
    Proposed additions on Ofu contain excellent wildlife and 
coral reef habitats. The law that established the National Park 
of American Samoa does not provide the authority for the 
National Park Service to acquire parklands, but instead 
requires these lands must be leased from the Governor of Samoa. 
The park's enabling legislation places the responsibility for 
determining the rental value of lands to be leased for this and 
then with the High Court of American Samoa administering those 
fair market appraisals.
    As a reference point, the park currently leases 8,000 acres 
for $419,000 annually. The off-shore waters would be leased 
from the Government of American Samoa at no cost. No 
development is contemplated within the boundary adjustment 
area, so no construction nor significant development costs are 
anticipated in connection with H.R. 1712.
    At the House hearing on February 14, 2002, we recommended 
two technical amendments which the House included in the bill 
that passed on March 19, 2002.
    Mr. Chairman, that concludes all my testimony today. I look 
forward to trying to answer your questions.
    [The prepared statements of Mr. Smith on S. 1257, H.R. 107, 
S. 1312, H.R. 2109, S. 1944, H.R. 38, H.R. 980 and H.R. 1712 
follow:]
   Prepared Statements of P. Daniel Smith, Special Assistant to the 
                    Director, National Park Service
                          s. 1257 and h.r. 107
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1257 and H.R. 107. These bills 
would require that the Secretary of the Interior conduct a theme study 
to identify sites and resources associated with the Cold War and to 
recommend ways to commemorate and interpret that period of our nation's 
history.
    The Department supports this legislation, if amended in accordance 
with this testimony, as we believe that is wholly appropriate for the 
National Park Service to undertake a study that will help ensure that 
the history of the Cold War era is preserved for future generations of 
Americans. However, the Administration did not request funding for this 
study or any other National Historic Landmark theme study in Fiscal 
Year 2003. Theme studies are not the same as special resource studies, 
which assess the suitability and feasibility of adding a site to the 
National Park System. Theme studies may identify sites that may be 
appropriate candidates for special resource studies, but these studies 
themselves do not evaluate sites for possible addition to the National 
Park System. Therefore, theme studies do not have the potential to lead 
directly to new operation, maintenance or other costs for the National 
Park Service.
    S. 1257 and H.R. 107 would require the Secretary of the Interior to 
conduct a National Historic Landmark theme study to identify sites and 
resources in the United States that are significant to the Cold War. 
The bills specifically provide that the study consider the inventory of 
Cold War resources that has been compiled by the Department of Defense 
and other historical studies and research on various types of military 
resources. They also require the study to include recommendations for 
commemorating these resources and for establishing cooperative 
arrangements with other entities.
    In addition to authorizing the theme study, S. 1257 and H.R. 107 
would require the Secretary to prepare and publish an interpretive 
handbook on the Cold War and to disseminate information gathered 
through the study in other ways. S. 1257, but not H.R. 107 as amended, 
would also require the Secretary to establish a Cold War Advisory 
Committee to consult on the study. S. 1257 and H.R. 107 both authorize 
appropriations of $300,000 to carry out the legislation.
    The National Historic Landmarks program was established by the Act 
of August 21, 1935, commonly known as the Historic Sites Act (16 U.S.C. 
461 et. seq.) and is implemented according to 36 CFR Part 65. The 
program's mission is to identify those places that best illustrate the 
themes, events, or persons that are nationally significant to the 
history of the United States and that retain a high degree of 
integrity. Potential national historic landmarks are often identified 
through theme studies such as the one that would be authorized by this 
legislation.
    For example, in 2000, the National Park Service completed and 
transmitted to Congress a National Historic Landmark theme study on the 
history of racial desegregation of public schools, which was authorized 
by Public Law 105-356, the Act that established the Little Rock Central 
High School National Historic Site. Federal, state, and local officials 
across the country are now using this study to identify and evaluate 
the significance of numerous properties. So far, properties in nine 
states and the District of Columbia have been recommended for 
consideration as national historic landmarks. Currently the National 
Park Service is conducting several other theme studies, including one 
related to the history of the labor movement, another on the earliest 
inhabitants of Eastern North America, and another on sites associated 
with Japanese Americans during World War II.
    At the moment, the history of the Cold War has some presence in the 
National Park System and on the two lists of historic sites maintained 
by the National Park Service. The National Park System includes one 
unit related to the Cold War, the Minuteman Missile National Historic 
Site in South Dakota, which Congress established in 1999 to preserve 
and interpret the role of Intercontinental Ballistic Missiles in our 
nation's defense system.
    Out of 2,341 designated national historic landmarks, five recognize 
civilian or military aspects of Cold War history, and out of nearly 
75,000 listings on the National Register of Historic Places, 17 
(including the five landmarks) are related to the Cold War. The 
relatively small number of recognized sites is due in large part to the 
fact that the Cold War has only recently been viewed as historically 
important. With or without a theme study, these numbers would likely 
increase over time, and the Department of Defense could take steps on 
its own to identify these sites under their jurisdiction.
    Although S. 1257 and H.R. 107 as passed by the House are very 
similar, there are some important differences between the two. As 
introduced, both H.R. 107 and S. 1257 included a provision requiring 
the Secretary to establish a Cold War Advisory Committee to assist with 
the study [Section 3 of S. 1257]. At our request, the House deleted 
this provision from H.R. 107. Whether this committee acts on H.R. 107 
or S. 1257, we strongly recommend that the advisory commission be 
omitted. In our view, such a committee is unnecessary and would add 
greatly to the cost of a study and time required to complete it due to 
the legal requirements of the Federal Advisory Committee Act (5 U.S.C. 
App.).
    National Historic Landmark program regulations already require 
consultation with Federal, state, and local governments; national and 
statewide associations; and a variety of other interested parties. 
Through partnering with a national historical organization, using a 
peer-review process, and consulting with appropriate subject experts as 
well as the general public, the National Park Service would ensure that 
the broadest historical perspectives are represented in any study it 
undertakes.
    Another difference between S. 1257 and H.R. 107 is a provision 
requiring the inclusion in the study of recommendations on the 
suitability and feasibility of establishing a central repository for 
Cold War artifacts and information. This provision is found in H.R. 
107, but not in S. 1257. Studying and developing recommendations of 
that nature would be an undertaking that is well beyond the scope of a 
theme study, and that also could consume a large portion of the 
$300,000 authorized for the legislation. We urge that this provision 
[Section 1(b)(1)(C) of H.R. 107] be omitted from the legislation 
reported by this committee.
    In addition, we have been informed by the Department of Justice 
that the provisions of the bill that would require the Secretary of the 
Interior to make recommendations to Congress concerning federal 
protection for Cold War sites appear to violate the Recommendations 
Clause of the Constitution, which reserves to the President the power 
to decide whether it is necessary or expedient for the Executive Branch 
to make legislative policy recommendations to the Congress. The 
Administration would be pleased to provide language to remedy the 
bill's constitutional defects.
                         s. 1312 and h.r. 2109
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1312 and H.R. 2109. These 
bills would authorize the Secretary of the Interior to conduct a 
special resource study of Virginia Key Beach in Biscayne Bay, Florida, 
where a recreational community for African Americans flourished at a 
time when non-whites were prohibited from using other beaches in the 
Miami area.
    The Department supports both bills, but we prefer H.R. 2109 as 
passed by the House on April 30 for reasons explained later in this 
testimony. However, we did not request additional funding for this 
study in Fiscal Year 2003. Altogether, there are 37 studies pending, of 
which we hope to transmit at least 7 to Congress by the end of 2002. We 
have concerns about adding new funding requirements for new park units, 
national trails, wild and scenic rivers or heritage areas at the same 
time that we are trying to eliminate the deferred maintenance backlog. 
The Department will identify in each study all of the acquisition, one-
time, and operational costs of the proposed site. At this time the 
costs are unknown.
    S. 1312 and H.R. 2109 authorize the Secretary of the Interior to 
conduct a special resource study of Virginia Key Beach Park in Biscayne 
Bay, Florida. The study would evaluate the site's national significance 
and the suitability and feasibility of designating it as a unit of the 
National Park System. The bill calls for the study to be completed 
under the guidelines in Section 8 of P.L. 91-383, the National Park 
Service General Authorities Act of 1970, as amended, which contains the 
criteria for studying areas for potential inclusion in the National 
Park System. The guidelines specify that studies consider other 
alternatives for protection of the subject area besides direct 
management by the National Park Service.
    Virginia Key Beach Park is a 77-acre site on the southeastern side 
of Virginia Key, an island of approximately 1,000 acres located two 
miles east of downtown Miami, Florida and about one mile southwest of 
the southern tip of Miami Beach. Although there has been some limited 
development, the island is non-residential and includes ponds and 
waterways, a tropical hardwood hammock, and a large wildlife 
conservation area.
    In the summer of 1945, at the ``whites-only'' Baker's Haulover 
Beach in north Dade County, a group of black men led by Judge Lawson E. 
Thomas staged a protest of the segregation laws that prohibited black 
persons from using the public beaches of Miami and Dade County. In 
response to the protest, county officials created a public beach for 
the black community on Virginia Key, which opened on August 1, 1945.
    The beach at Virginia Key had been used by African Americans for at 
least the two previous decades. During World War II, the Navy used 
Virginia Key Beach for training African American servicemen who were 
not permitted to train in the waters along the ``whites-only'' beaches. 
It was not until 1945, however, that the county began building 
recreational facilities there and making the beach more accessible by 
providing ferry boat service until the completion of the Rickenbacker 
Causeway in 1949 allowed access by automobile.
    Virginia Key Beach Park had bathhouses, picnic pavilions, a 
concession stand, and a carousel and other amenities. The beach 
remained segregated through the 1950's, until civil rights laws opened 
all the public beaches in the area. Still, through the next two 
decades, Virginia Key Beach remained a popular destination for many in 
the black community. In 1982, the area was transferred from the county 
to the City of Miami with the stipulation that the area be kept open 
and maintained as a public park and recreation area. However, the city 
closed Virginia Key Beach Park shortly after the transfer, citing the 
high cost of maintenance and operations. After nearly 20 years of non-
use, the bathhouse, concessions building and other facilities have 
fallen into disrepair.
    At the present time, efforts are underway locally to promote 
recognition and restoration of Virginia Key Beach Park. In 1999, the 
City of Miami appointed the Virginia Key Park Civil Rights Task Force 
to study and make recommendations for the site, one of which was to 
establish a more permanent entity to carry on the work of the task 
force. The Virginia Key Beach Park Trust was established in January, 
2001, to implement the task force's recommendations. A nomination for 
the National Register of Historic Places is currently being prepared 
for the site. A special resource study conducted by the National Park 
Service would draw from the information compiled through these efforts 
and facilitate decisions about appropriate means to recognize and 
protect this site.
    We recommend that the committee approve the language used in H.R. 
2109 as passed by the House rather than that used in S. 1312. H.R. 2109 
was amended by the House to change the name of the area to be studied 
from ``Virginia Key Beach'' to ``Virginia Key Beach Park.'' Although 
the names have been used interchangeably, using the term ``Virginia Key 
Beach Park'' helps clarify that the study is focused on the 77-acre 
recreation site and does not include the entire beach of Virginia Key. 
It is also consistent with the name that is being used for the site in 
the nomination for the National Register of Historic Places.
                                s. 1944
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on S. 1944, a bill to revise the 
boundary of the Black Canyon of the Gunnison National Park and Gunnison 
Gorge National Conservation Area in the State of Colorado, and for 
other purposes.
    The Department of the Interior supports S. 1944. The bill 
authorizes additions to both Black Canyon of the Gunnison National Park 
(``Park''), through three separate easement or exchange transactions, 
and Gunnison Gorge National Conservation Area (``NCA''). The revision 
of the national park boundary would not contribute to the National Park 
Service (``NPS'') maintenance backlog because the management and 
operation of the land added to the boundary would not result in any 
additional facilities, increased operating costs, or additional 
staffing. Costs involved with the land transactions are expected to be 
minimal. One parcel would be an equal value exchange, another would 
involve the purchase of a conservation easement on 240 acres, estimated 
to cost approximately $500,000 (although the park currently has 
approximately $300,000 in a land acquisition account that could be used 
for this transaction), and the third involves the transfer of 480 acres 
of isolated Bureau of Land Management (BLM) land to the NPS and then 
the exchange of this parcel for a conservation easement on 
approximately 2,000 acres. The private landowner is expected to donate 
the difference in value as a result of this last exchange.
    S. 1944 amends the Black Canyon of the Gunnison National Park and 
Gunnison Gorge National Conservation Area Act of 1999 (Public Law 106-
76). The boundary of the park would be revised to include the addition 
of not more than 2,725 acres and the National Conservation Area (NCA) 
would also be revised. These additions are indicated on a new map, 
which supplements the boundary map referenced in P.L. 106-76.
    The bill authorizes the transfer of 480 acres of BLM land to the 
jurisdiction of NPS. The Secretary is authorized to acquire lands or 
interests in lands in accordance with P.L. 106-76 (by donation, 
transfer, purchase with donated or appropriated funds, or exchange) and 
lands cannot be acquired without the consent of the owner.
    S. 1944 also amends P.L. 106-76 to clarify grazing privileges 
within the park. If land authorized for grazing within the park is 
exchanged for private land, then any grazing privileges would transfer 
to the private land that is acquired. Also, the bill clarifies the 
length of time that grazing may be conducted on park lands by 
partnerships.
Black Canyon of the Gunnison National Park
    The boundary of the park would be expanded in three transactions. 
The first, locally referred to as Sanburg II, is located just south of 
Red Rock Canyon, one of the most scenic hiking opportunities into the 
Black Canyon of the Gunnison. The landowner agrees with the NPS that 
maintaining the rural character adjacent to the Red Rock Canyon 
trailhead is an important part of the wilderness experience and he 
would be willing to sell the NPS a conservation easement on 240-acres 
in order to maintain the rural character of the land, and to prevent 
future subdivision. The Conservation Fund, a nationally recognized land 
trust, is assisting with this effort.
    The second, the Bramlett exchange, would authorize the exchange of 
a 200-acre parcel of the Bramlett Ranch located on Grizzly Ridge, which 
overlooks the North Rim Road and North and South Rim overlooks. 
Although the landowner has proposed building cabins on the ridge top, 
he is willing to exchange this 200-acre parcel for land of equal value 
within the park and adjacent to his ranch headquarters. The equal value 
exchange would give the landowner land with easier access, and would 
add the ridgeline parcel to the park, thus protecting the natural 
landscape in that portion of the park.
    The third boundary adjustment, the Allison exchange, is located 
along the East Portal Road, on the park's south rim. The landowner 
would exchange a combination of fee simple ownership and a conservation 
easement on up to 2,000 acres in return for fee simple ownership of up 
to 480 acres of the BLM parcel that would be transferred to NPS. The 
landowner has indicated that he would protect this parcel with a 
conservation easement should he acquire it. He has also indicated that 
he would donate any value above and beyond the value represented in the 
exchange.
    The Department believes these acquisitions are important for 
several reasons. Combined with the land authorized by P.L. 106-76, the 
present and future land requirements for the park would be met. The 
present landowners are all willing sellers and in addition to them, 
this effort enjoys the support of the Montrose County Commissioners, 
the Montrose Chamber of Commerce, and local and national land trusts 
involved in the project.
    S. 1944 would also amend P.L. 106-76 regarding grazing within the 
park. P.L. 106-76 allowed for the continuation of grazing on lands 
transferred to the NPS. Permits held by individuals can be renewed 
through the lifetime of the individual permittees. However, P.L. 106-76 
requires that partnerships and corporations be treated alike regarding 
the termination of grazing permits. Partnerships and corporations now 
lose their permits upon the termination of the last remaining 
individual permit.
    S. 1944 would amend P.L. 106-76 to treat partnerships similarly to 
individual permit holders, allowing permits to be renewed through the 
lifetime of the partners as of October 21, 1999. Since the two 
partnerships affected are essentially family run ranching operations, 
the Department feels that they should be treated consistently with 
individual permit holders.
    S. 1944 would also allow grazing on land acquired in an exchange if 
the land being given up in the exchange currently has authorized 
grazing. This appears to be consistent with the intent of Congress when 
it authorized grazing in Public Law 106-76.
Gunnison Gorge National Conservation Area
    S. 1944 also provides for the expansion of the Gunnison Gorge NCA 
managed by the BLM. A 5,759-acre parcel of land on the north side of 
the existing NCA has been acquired from a willing seller through a land 
exchange. This parcel includes approximately five miles of the Gunnison 
River and provides important resource values and recreational 
opportunities. In addition, 1,349 acres of preexisting BLM-managed 
public lands on the north side of the acquisition would also be added 
to the NCA. By incorporating these federal lands into the NCA, they 
will have appropriate protection, attention, and resources devoted to 
them.
    The legislation also makes some minor boundary adjustments to the 
NCA. In the process of completing surveys of the lands designated as 
the NCA by P.L. 106-76, the BLM discovered a few inadvertent trespass 
situations on the NCA land. In order to resolve these issues with the 
local landowners in a fair and equitable manner, slight boundary 
modifications need to be made so that exchanges can be effected. 
Without the benefit of this legislation, the BLM would be forced to 
take extreme punitive measures which are not in the best interest of 
the federal government or local landowners who frequently were not 
aware of the encroachment issues.
    Since S. 1944 was introduced the BLM has discovered an additional 
trespass and we would like the opportunity to work with Senator 
Campbell and the subcommittee to modify the map before markup. Finally, 
the BLM recently discovered an error in computing acreage totals on the 
January 22 map references in the bill and would like to correct those 
before markup.
                                h.r. 38
    Mr. Chairman, thank you for the opportunity to present the views of 
the Department on H.R. 38. This bill provides for additional lands to 
be included within the boundaries of Homestead National Monument of 
America in the State of Nebraska. The House passed this legislation on 
December 11, 2001.
    The Department supports the enactment of H.R. 38, as passed by the 
House. Acquisition of these additional lands has been recommended by 
the Homestead National Monument of America's 1999 General Management 
Plan, and costs to administer this boundary modification are expected 
to be minimal. Funding to acquire the privately owned properties was 
included in the Fiscal Year 2001 Interior Appropriations Act, and we 
anticipate that management of the acquired lands can be accomplished 
with existing park resources.
    Homestead National Monument of America (Monument) was established 
in 1936. The Monument's enabling legislation states that the purpose of 
the Monument is to establish ``. . . a proper memorial emblematical of 
the hardships and the pioneer life through which the early settlers 
passed in settlement, cultivation, and civilization of, the Great West 
. . .'' The legislation also specifies that the Secretary of the 
Interior will ``. . . erect suitable buildings to be used as a specific 
museum in which shall be preserved literature applying to such 
settlement and agriculture implements used to bring the western plains 
to its present state of high civilization, and to use the said tract of 
land for such other objects and purposes as in his judgment may 
perpetuate the history of this country mainly developed by the 
homestead law.''
    If enacted, the bill will add four small, but important, parcels of 
land to the Monument. These additions will allow the opportunity for 
greater protection of the Monument's primary cultural resource, will 
protect the Monument from encroaching development, and will provide the 
opportunity for improved visitor and interpretive services. The total 
amount of land to be added is approximately 33 acres. The private 
landowners affected have agreed in principle to this proposed 
legislation and the State of Nebraska has agreed, as well, to donate 
its lands as provided for in the bill.
    The four parcels to be added to the Monument and the purposes for 
the addition of each are as follows:
    THE GRAFF PROPERTY: This privately owned parcel consists of 
approximately 15.98 acres adjacent to and overlooking the Monument's 
grounds. Addition of the property would serve two purposes. First, it 
would ensure protection for the nation's second oldest restored 
prairie, which holds important educational, research, and scientific 
values. Second, this property, located on higher ground, could be used 
as an alternative location, outside of the floodplain, for the 
Monument's primary cultural resource, the Palmer-Epard cabin, as well 
as the visitor facility.
    PIONEER ACRES GREEN: This parcel consists of approximately 3 acres 
of privately owned land. Inclusion of this property in the boundary 
will provide additional protection to park resources from nearby 
development.
    SEGMENT OF STATE HIGHWAY 4: This parcel consists of approximately 
5.6 acres of Nebraska State Highway 4 and its addition will protect 
natural and archeological resources and provide a site to support 
education efforts through interpretive wayside exhibits. The State of 
Nebraska is currently examining proposals to reroute State Highway 4, 
which would allow for this existing road to serve as an access road to 
the Monument.
    STATE TRIANGLE: This parcel consists of approximately 8.3 acres and 
is bounded by the Monument on two sides and by State Highway 4 on the 
third side. The property is immediately adjacent to the site of the 
original homestead cabin and will allow for maximizing interpretive 
efforts and maintaining the integrity of the Monument's boundaries.
    At the request of the landowner, the property described in 
subsection (b)(1)--the Graff Property--must be acquired within five 
years after the date of the enactment of this Act. The family, which 
has been a strong supporter of the Monument, made this request in order 
to better plan for the future and to minimize the impacts on their 
lives. If this legislation is enacted, meeting the request should not 
be difficult since the funds for acquisition have already been 
appropriated.
    Mr. Chairman, the Department supports the enactment of H.R. 38, as 
passed by the House, and we thank you again for the opportunity to 
appear today.
                                h.r. 980
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 980, which would establish 
the Moccasin Bend National Historic Site in Chattanooga, Tennessee as a 
unit of the National Park System.
    The Department recommends that the Committee defer action on this 
legislation during the remainder of the 107th Congress. The Department 
has reviewed our progress on the President's Initiative to eliminate 
the deferred maintenance backlog, and it is clear that we need to 
continue to focus our resources on caring for existing areas in the 
National Park System. For this reason, the Department will only support 
new designations that involve no new cost or minimal cost to the 
Federal government for land acquisition, operations, and maintenance.
    In addition, with respect to this particular proposal, the 
Department has concerns with some of the provisions of H.R. 980 and has 
some recommendations for amendments to address the National Park 
Service's ability to ensure the long-term protection of the resources 
and to accommodate public use at Moccasin Bend.
    H.R. 980, which passed the House of Representatives on October 23, 
2001, would establish a new unit of the National Park System focused on 
archeological resources that relate to the American Indians who 
inhabited Moccasin Bend for several thousands of years before Europeans 
came to North America. It would also include resources related to the 
Union's siege of Chattanooga during the Civil War and the 1838 and 1839 
removal of Cherokee Indians from their ancestral homes along the Trail 
of Tears. Most of the land that would comprise this unit is part of the 
area designated in 1986 as the Moccasin Bend Archeological District 
National Historic Landmark. The unit would also include land known as 
the Rock-Tenn property that was part of the Trail of Tears route and a 
parcel contiguous to the archeological district, the Serodino property, 
that appears to be a suitable site for a visitor center.
    The State of Tennessee and local authorities own most of the land 
within Moccasin Bend, although there are some private holdings in the 
area. H.R. 980 as passed by the House would authorize the land within 
the boundary of the national historic site to be acquired by donation, 
exchange, or purchase from willing sellers. It provides that the 
Secretary of the Interior may accept a donation of the Moccasin Bend 
Mental Health Institute--one of two major incompatible uses at Moccasin 
Bend--only after the facility is no longer used to provide health care 
services, except for any land the State determines is excess to the 
needs of the facility. The legislation excludes from the boundary of 
the national historic site the part of the archeological district that 
is currently leased for a golf course--the other major incompatible 
use--but it does allow the Secretary to acquire the golf course if it 
ceases to be used for that purpose.
    In addition, H.R. 980 provides authority for the Secretary to enter 
into cooperative agreements with other parties for the preservation, 
development, interpretation, and use of the historic site, and allows 
the Secretary to use a portion of the visitor center established for 
the historic site as an additional interpretive center for the Trail of 
Tears National Historic Trail.
    Efforts to include Moccasin Bend in the National Park System date 
back to 1950, when Congress enacted legislation that authorized the 
acquisition by donation of 1,400 acres of Moccasin Bend for addition to 
the Chickamauga and Chattanooga National Military Park. At that time, 
Moccasin Bend was almost entirely open space. State, county, and city 
governments acquired property, but did not transfer any of the land to 
the National Park Service. Instead, a significant portion of the land 
was used for other purposes.
    The 1950 legislation was based largely on the desire to maintain 
the view from Lookout Mountain that was nearly unchanged from the Civil 
War era. Since that time, Moccasin Bend has been recognized for its 
nationally significant cultural resources. Surrounded on three sides by 
the Tennessee River, Moccasin Bend possesses a special collection of 
continuous prehistoric and historic sites that chronicle important 
aspects of human history on the North American continent, including (1) 
transitional Paleo-Archaic and Archaic sites, (2) Woodland period 
settlement sites and burial mounds, (3) fortified proto-historic 
villages, (4) Spanish exploration and settlement of the southeastern 
United States, (5) contact between native and nonnative peoples, (6) 
part of the Trail of Tears National Historic Trail, and (7) the 
location of Union earthworks, such as cannon emplacements, rifle pits, 
bivouac pads, and access roads, which were of strategic importance in 
breaking the Confederate hold on Chattanooga in the fall of 1863. The 
site was listed on the National Register of Historic Places in 1984, 
and 956 acres of Moccasin Bend were designated as the Moccasin Bend 
Archeological District National Historic Landmark in 1986.
    In 1998 and 1999, at the direction of Congress, the NPS prepared 
the Cooperative Management Plan/Environmental Assessment for Moccasin 
Bend in accordance with guidelines for special resource studies. This 
process followed other Moccasin Bend planning efforts in the 1990's, 
including a Chattanooga citizen involvement planning process called 
``Revision 2000,'' and a battlefield preservation plan for Civil War 
resources within the national historic landmark prepared by the Friends 
of Moccasin Bend National Park. The study was called a cooperative 
management plan to emphasize the close working relationships that had 
developed among local, regional, state, federal, and tribal governments 
as well as the extensive public participation involved in the effort. 
As is standard procedure for special resource studies, this study 
examined the national significance, suitability, and feasibility of 
adding this site to the National Park System.
    The determination of national significance had already been 
established through the designation of the Moccasin Bend Archeological 
District National Historic Landmark in 1986 because of its significance 
to American Indian and U.S. military history. The study reconfirmed 
this significance, pointing out that the area has the best intact 
concentration of archeological resources known to exist in the entire 
main 650-mile Tennessee River valley, and that the quality, diversity, 
and broad accessibility of these resources cannot be matched in any 
other American metropolitan area. The study also found that the extant 
earthworks of the Battle of Chattanooga within the archeological 
district are the best preserved of all physical remnants of that battle 
and the only recognized unit of Union army gun emplacements, trenches, 
and support areas remaining extant from that costly campaign.
    The study also found that the Moccasin Bend Archeological District 
met the test of suitability for a unit of the National Park System, in 
that it represented a theme or resource that is not already adequately 
represented in the National Park System nor is comparably represented 
and protected for public enjoyment by another land-managing entity. 
Although American Indian archeological sites are represented in the 
National Park System, none of the designated units possess the 
extensive range of excavated archeological resources as well as 
unexcavated subsurface resources for which Moccasin Bend is 
significant. The length of continuous cultural occupation at Moccasin 
Bend--10,000 years--is not duplicated anywhere else within the National 
Park System.
    With respect to the test of feasibility, however, the study found 
that certain conditions needed to be met for the area to be considered 
feasible as a new unit of the National Park System. To be feasible for 
inclusion, an area's natural systems and/or historic settings must be 
of sufficient size and appropriate configuration to ensure long-term 
protection of the resources and to accommodate public use, and it must 
have potential for efficient administration at reasonable cost. The 
study found that unless the incompatible uses within the archeological 
district were removed and the land was restored to resemble the way it 
looked at the time of the 1950 legislation, the area would not be 
feasible as a unit of the National Park System. The study determined 
that those uses need to be removed in order to provide visitors a 
quality experience in a landscape reminiscent of its past, 
comprehensively protect archeological resources and provide for 
additional research opportunities, and attract tourists to visit 
Moccasin Bend in large numbers. So long as any of the 956 acres 
remained under the jurisdiction of entities that do not have resource 
preservation as a primary goal, there would always be a risk that 
future management actions could damage or destroy subsurface cultural 
resources.
    The facilities within the archeological district that are 
incompatible with the park include the Moccasin Bend Mental Health 
Institute, a public golf course, radio towers, a law enforcement 
firearms training range, and a model airplane facility. All of those 
facilities, except for the radio towers, are on land that is owned by 
the State or local authorities. Since H.R. 980 was first introduced, 
the National Park Service has been engaged in discussions with the 
legislation's sponsor, Representative Zach Wamp, and with Senators Fred 
Thompson and Bill Frist, to address these incompatible uses in a way 
that avoids a sudden disruption in existing activities, yet assures 
that, in time, there would be a viable unit of the National Park System 
at Moccasin Bend.
    Our support for H.R. 980 is contingent upon amending it to provide 
that the establishment of the site would occur only after certain 
requirements related to land transfers and operational issues are met. 
Those requirements would include:

          1) Receiving from the State the land it owns within the 
        archeological district except for that needed to operate the 
        Moccasin Bend Mental Health Institute;
          2) Receiving from the State the donation in escrow of the 
        remainder of the land it owns in the archeological district 
        containing the Moccasin Bend Mental Health Institute. The 
        transfer of the property to the United States should occur by a 
        reasonable date (preferably no later than December 31, 2015);
          3) Receiving from Hamilton County and the City of Chattanooga 
        the donation of the land they own within the archeological 
        district except for the land used for the golf course, the law 
        enforcement firearms training range and model airplane 
        facility;
          4) Receiving from Hamilton County and the City of Chattanooga 
        a written commitment to transfer to the United States the land 
        used for the law enforcement firearms training range and the 
        model airplane facility within five years of enactment of the 
        legislation and to transfer the golf course to the United 
        States if it is no longer used for that purpose;
          5) The signing of a memorandum of agreement by the State, the 
        County, the City, and the Secretary of the Interior that 
        addresses issues of mutual concern for operating a national 
        historic site at Moccasin Bend. These issues would likely 
        include such matters as consulting with the National Park 
        Service and American Indian groups about excavation activities 
        on land remaining in the ownership of the State and local 
        authorities; permitting access to each others' land for various 
        purposes, and providing security for people residing and 
        visiting Moccasin Bend.

    In addition, the Administration has concerns about the costs of 
removal of hazardous waste and the restoration of the transferred land 
to resemble the area's 1950 appearance. We would like to work with the 
State, the County, and the City to address those concerns.
    There are also other changes to the legislation as passed by the 
House that the Department would like to recommend to the committee at 
an appropriate time. For example, we believe that the legislation 
should list the three primary themes that would be interpreted at the 
site: American Indian settlement, the Civil War siege of Chattanooga, 
and the Trail of Tears.
    The National Park Service is currently discussing with the offices 
of Senators Frist and Thompson and Representative Wamp the means of 
obtaining commitments for the land transfers and an agreement on 
operational issues that we are seeking. One option that has been raised 
as an alternative to amending the legislation as described above would 
be to obtain written commitments from the State, the County, and the 
City for these actions. The committee may want to consider that option, 
if such commitments could be secured prior to reporting the 
legislation.
    The actions we are seeking from the State and local authorities 
before establishing a national historic site at Moccasin Bend are 
significantly less demanding than those recommended in the 1999 study 
the National Park Service conducted for the site. For example, the 
study called for the City and County to remove the golf course and 
restore the cultural landscape there by 2005, and for the State to 
remove the mental health institute facilities and restore the cultural 
landscape there by 2009. We are now recommending a course of action in 
which the local authorities would be able to maintain the golf course 
indefinitely, so long as they commit to transferring the land for the 
national historic site if the golf course is ever closed, and in which 
the State would be able to continue operating the mental health 
institute until the date of transfer, which would likely be beyond 
2009.
    These are compromises that recognize that, although there appears 
to be strong support in the Chattanooga community for establishing the 
national historic site, there is also a reluctance there to accept the 
closing of existing operations at Moccasin Bend that provide other 
benefits to the community, at least in the near term. We believe that 
the resources at Moccasin Bend are so significant, and so worthy of 
protecting and interpreting for the public, that we would be willing to 
accept this site as a unit of the National Park System under the less-
than-ideal terms we have outlined.
    Mr. Chairman, to summarize our position on H.R. 980, we ask the 
committee to defer action on this legislation for the remainder of this 
Congress. But if the committee decides to take further action on this 
legislation, we would like to work with the committee to develop 
amendments to H.R. 980 to provide for specified transfers of land from 
the State and local authorities to the United States and an agreement 
on operational issues, unless the committee determines that a written 
commitment from State and local authorities is sufficient to assure 
that those actions will occur.
                               h.r. 1712
    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1712, a bill to authorize 
the Secretary of the Interior to make minor adjustments to the boundary 
of the National Park of American Samoa, to include certain lands of the 
islands of Ofu and Olosega within the park, and for other purposes. The 
House passed this legislation on March 19, 2002.
    The Department does not oppose H.R. 1712. This legislation will 
provide authority for the Secretary of the Interior to adjust the 
boundary of the National Park of American Samoa to include up to 
approximately 1,000 acres of land on the island of Olosega, up to 
approximately 450 acres on the island of Ofu, and approximately 1,500 
acres of ocean waters offshore of Olosega and Ofu. The lands on the 
island of Olosega and the adjacent offshore waters will add important 
cultural, biological and marine resources to the national park. The 
lands on the island of Ofu will ensure the long-term protection of 
important and fragile coral reef resources presently within the 
national park.
    Proposed additions on Ofu contain excellent wildlife and coral reef 
habitats. Currently, only a strip of sand beach and the associated 
coral reef are within the national park boundary on Ofu. This coastal 
area contains a world-class coral reef area of remarkably high 
diversity and beauty. The proposed addition would protect the upland 
watershed so that the coral reef would not be impaired by non-park 
developments. Coastal areas on the north side of Ofu are proposed 
because of the exceptionally healthy and diverse coral communities 
found there, and because the north shores of Ofu and Olosega are 
connected and constitute a single coral reef ecosystem.
    The archeological resources found on Olosega between the 300 and 
800-foot elevations are not only important, but are unique in American 
Samoa. Unique to Olosega are the number of star mounds and what appears 
to be a remnant agro-forestry system. Archeological reconnaissance 
surveys carried out on Olosega in July 1999 by the National Park 
Service and the University of North Dakota's Department of Anthropology 
identified 31 star mounds, 46 modified terraces, 14 house platforms, an 
elevated grave site believed to be associated with the Tui Olosega 
(King of Olosega), and numerous stone tools. Star mounds are massive 
rock platforms with radiating arms built by the ancient Samomans for 
cultural and sporting events. Up until 1999, star mounds were known to 
exist only on Upolo (in Samoa) and Tutuila islands. Archeologists 
believe the agro-forestry system found on Olosega, with further study, 
could prove to be an agricultural system that existed in relative 
equilibrium with the native forest system. Most of the sites and 
artifacts found on Olosega were well-preserved.
    Also in 1999, a survey of Olosega's biotic resources by the park's 
wildlife biologist found that the unoccupied portions of the island 
provide excellent habitat for native wildlife. Large tracts of land on 
Olosega remain relatively wild and the island is free of many of the 
introduced species that compete with the native wildlife within the 
park on Tutuila. In addition, Olosega includes the presence of the 
rarer bird species that occur in American Samoa. Fiji shrikebill, 
uncommon on the other islands, were consistently seen on Olosega during 
the 1999 survey. The Friendly ground dove and the Blue-crowned lory are 
also present. The Friendly ground dove is a candidate for listing as an 
endangered species. Biologists believe the shrikebill found on Olosega 
may be a separate subspecies found only on the Manu'a Islands.
    Although Olosega shares the same fauna found on the other islands 
of American Samoa, the species composition of the forest trees is 
somewhat unique. The 1999 survey found a high concentration of Samoan 
medicinal plants. Many of these medicinal plants are disappearing from 
the native forests of Samoa. The survey also found that the area 
between the 200 and 800-foot elevation represented a traditional mixed 
agro-forestry system developed over decades of manipulation and 
cultural use. The system appeared to be relatively stable and may have 
reached a sustainable equilibrium.
    Small populations of two species of flying foxes are believed to 
exist on Olosega. Protection of these fruit-eating bats is included in 
the park's enabling legislation. In addition, there are indications 
that a few individuals of the nearly extirpated sheath-tailed bat are 
present on Olosega. This small insectivorous bat is a candidate for 
listing as an endangered species and is not currently found within the 
existing boundary of the park.
    The coastal and marine areas of Olosega contain rich coral and fish 
communities and would complement the Ofu reef currently included within 
the park boundary. Surveys have found that Olosega's offshore waters 
are among the richest and most densely populated with fish species in 
the entire Samoan archipelago. Both the endangered Hawksbill and the 
threatened Green sea turtles are present in Olosega's offshore waters. 
The U.S. Fish and Wildlife Service and the National Marine Fisheries 
Service believe that the Hawksbill turtle is a species rapidly 
approaching extinction, making its protection in Olosega's reefs and 
offshore waters of vital importance.
    The law that established the National Park of American Samoa does 
not provide the authority for the National Park Service to acquire park 
lands, but instead requires that lands must be leased from the Governor 
of American Samoa. Lands within the authorized boundary expansion would 
be added to the park incrementally, based on future discussions with 
village landowners and modification of the existing lease. The park's 
enabling legislation places the responsibility for determining the 
rental value of lands to be leased for the national park with the High 
Court of American Samoa. As a point of reference, the park currently 
leases approximately 8,000 acres for $419,000 annually. The offshore 
waters would be leased from the Government of American Samoa at no 
cost. No development is contemplated within the boundary adjustment 
areas, so no line-item construction or significant development costs 
are anticipated in connection with H.R. 1712.
    In March 1998, the Olosenga Village Council noted in a letter to 
American Samoa's Congressional representative, Congressman Eni F.H. 
Faleomavaega, that the national park has contributed much to the 
preservation of Samoan culture, the rainforest and the coral reef. In 
addition, the council noted that the park has also been a positive 
factor to the economic well-being of the territory through tourism and 
lease payments to the villages in the park. The village council of 
Olosega expressed its support for expansion of the park boundaries, and 
we are pleased that this has been a grassroots effort supported by the 
community.
    Also significant would be inclusion of the coral reefs around 
portions of Olosega within the national park, which would further the 
Governor's directive to local agencies to protect 20 percent of the 
territory's coral reefs. At present, only about six percent of the 
territory's reefs are in protected areas.
    At the House hearing on February 14, 2002, we recommended two 
technical amendments, which the House included in the bill that passed 
on March 19, 2002.
    This concludes my testimony. I would be glad to answer any 
questions that you or members of the subcommittee may have.

    Senator Akaka. Thank you very much, Mr. Smith. I have a 
general observation and question on marine parks. H.R. 1712 
would expand the marine resources such as the coral reefs under 
Park Service management. The Service is responsible for 
increasing numbers of coastal park resources, including 
national parks in Florida, Hawaii, the Great Lakes, and a new 
monument in the U.S. Virgin Islands. We are considering two new 
marine park units in Florida, Miami Circle and Virginia Key. 
The question is, how does the Park Service intend to address 
the increasing need for protection and interpretation for such 
cultural and natural resources?
    Mr. Smith. Mr. Chairman, the simple answer is, it is being 
addressed, and we will not do it alone. Currently, the National 
Park Service manages approximately 2.5 million acres of 
maritime waters and almost 4,000 miles of coast in 60 parks, 
national seashores, recreation areas, and historic sites. 
Currently, the National Park Service and the Department are 
actively engaged in implementing Executive Order 13-158 on 
marine protected areas in cooperation with NOAA, the designated 
lead agency for the executive order. We are currently 
developing a national inventory of these MPA's to include 
information on maritime areas managed by the Park Service.
    Senator Akaka. Thank you for your response.
    S. 1257 and H.R. 107 require a theme study, we know, of 
Cold War sites and resources. The Park Service has expressed 
concerns about convening an advisory committee to assist in 
this study. Here is the question. Does the Park Service have 
any alternative proposals for convening a group to obtain input 
from academics and other Cold War experts?
    Mr. Smith. Mr. Chairman, we certainly do. The Park Service 
planning process is very involved with always utilizing the 
experts in any academic field, other government agencies, 
partners from the public-private sector, anything we can do in 
coordinating with State and local governments, so we see it as 
a very broad process that will include not only gathering 
information from people who can help us to interpret that 
theme, but also to have tremendous opportunity for public 
comment on that so that we would have time to really make sure 
the theme is being fully covered.
    This one is such a special theme, there will be a lot of 
coordination with other Federal agencies as you can imagine. 
Some things will be able to be released and some will not, but 
we will work very closely with all of our Federal partners to 
make that a very, very thorough theme study.
    Senator Akaka. Thank you for that.
    I have several questions on H.R. 980, the proposed Moccasin 
Bend National Historic Site. In the area known as Moccasin Bend 
there are currently several uses of this site. As we have 
heard, the Park Service special resource study found some of 
the uses, including the golf course and mental health 
institute, to be incompatible with the proposed new historic 
site.
    You have indicated in your testimony that a national 
historic site would be designated, and even though the mental 
health institute would remain on the site and provide service 
until 2015, or possibly even later, and the golf course might 
stay forever, and you are asking us to defer this one. How does 
the Park Service reconcile the designation of a new national 
historic site with the persistence of these uses?
    Mr. Smith. Senator, the site has been through a National 
Register of Historic Places review, and it did make the next 
highest level to become designated as a landmark in, I believe 
it was 1988.
    Mr. Chairman, if there was not 10,000 to 12,000 years of 
history that happened on this unbelievable geological feature, 
which I believe you have this map, I guess we would blink and 
say all these man-made things we put there, it is not worth 
going back to look at, but the fact that this unique area, 
under 1,000 acres, does have all of this history, which others 
who certainly know more than I do about archaeology will 
testify to later, it is there, you can see why historically it 
has had all this use by man, but then to also have the Civil 
War history there, to also have a very key interpretation of 
Native American history, you just cannot blink from a study and 
not say that this has such resources to it culturally that you 
would not want to see what we could do.
    It sounds overwhelming to remove these noncompatible uses, 
but the truth of the matter is the golf course is not 
disrupting the archaeology, so that can in time come into the 
system, and certainly the archaeology and all could be 
interpreted there.
    That mental health institute, if you could click the clock 
back you would have put it somewhere else in 1950, but again, 
eventually, time can solve that. Clean-up is an obstacle, but 
technology and some money can solve that.
    A firing range, we just removed two firing ranges out at 
Lorton facility and that area will go to recreation, so that is 
not a major item.
    The tower for communications, they might be unsightly, but 
it is not going to be a wilderness area, and so that is not 
something that is unsurmountable.
    We realize this is complex, we realize it is difficult, but 
so much of the land is under the control of local and State 
government. The fact that we think we can arrange to get these 
agreements of what we will do over a period of time, the fact 
is that of the 900 acres, so much of it is not built on, and 
does have this tremendous history which really is not 
interpreted in a current unit of the system that it is worth 
trying to work, as we have said we would like to, with the 
Congress and with the State and with the county to see if we 
can make this happen.
    I am not sitting here telling you this is not a difficult 
one, but I am telling you that because of what is there, it is 
worth the effort to see if we could move forward on it.
    Senator Akaka. Before I defer to Senator Thomas for 
questions, let me ask you one more. I understand there is 
existing legislation that already authorizes Moccasin Bend to 
be protected through additions to the nearby Chicamauga and 
Chattanooga National Military Park. The concern has been 
raised, however, that an addition to the existing military-
oriented park might not sufficiently highlight the outstanding 
Native American archaeological resources at Moccasin Bend.
    If Moccasin Bend were added to Chicamauga instead of being 
designated as a separate park, how does the Park Service intend 
to showcase the remarkable archaeological resources at Moccasin 
Bend?
    Mr. Smith. Mr. Chairman, as I summarized in my statement, 
and actually had more depth in that, the reason this land was 
assembled years ago was because of that possibility of addition 
to what we call Chic-Chat unit of the National Park System.
    What I have said briefly in answering your other question 
is that the Civil War history is, in and of itself, enough to 
bring a large portion of this site into the system as an 
addition to that Civil War unit, but because of this 10,000 
years of history, and the Trail of Tears history, we really 
strongly recommend that we try to work this through so that it 
would interpret those three very major cultural and historic 
events, rather than just go back to the already-authorizing 
legislation that would make it part of a Civil War site. It is 
much more significant than that, as I think you will hear from 
the witnesses that come after me.
    Senator Akaka. Thank you for your testimony.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman. Thank you, Mr. 
Smith, for your participation. I guess I want to go back 
generally to the study. I looked at the study, and the study 
basically indicated that this could be feasible for inclusion, 
but these incompatible uses had to be out of there, you said, 
by 2009. That is not going to happen. I mean, the studies are 
designed to give us some direction as to what to do. That does 
not.
    Mr. Smith. The time limits of the removal of these 
noncompatible entities is still in negotiation.
    Senator Thomas. Listen, you and I know it is not going to 
be done in 5 years.
    Mr. Smith. Senator, no. No. In fact, my next word was going 
to be, I was trying to figure out just how far out to start it 
and bring it back.
    Senator Thomas. I am talking about your study. Why did you 
say that in your study?
    Mr. Smith. I do not have a detailed answer, Senator. I can 
certainly provide that for the record.
    Senator Thomas. I think studies are very important, and I 
want to ask a couple more questions about studies. How many do 
you have pending?
    Mr. Smith. Mr. Thomas, I believe it is 37 that are 
currently pending. I think we have seven that we will get to 
the Congress this year, so 30 are going to be out there at the 
end of this fiscal year.
    Senator Thomas. And if we give more, there will be more 
than that.
    Mr. Smith. Yes, sir, and as I said in my testimony, we do 
not have funding for these studies in 2003.
    Senator Thomas. I do not understand that. I do not 
understand why you continue to take on studies that will not be 
done for 2 or 3 years and you do not ask for any money to do 
it. I do not understand that. It is easy to sit there and say 
yes, we will study it, but it does not happen for years, right?
    Mr. Smith. As anybody who deals in the budget climates we 
deal with, Senator, we do move them into play. The Park Service 
has a tremendous record of doing studies that eventually move 
things forward through suitability and feasibility, but yes, 
sir, there is a backlog in studies like there is a backlog in 
many other things the Congress has put into the system, and we 
work through the budget restraints we are under to move those 
forward as we can.
    Senator Thomas. Well, we changed the study thing just a 
couple of years ago so we would not have this kind of an 
operation going on, and unfortunately it still does. Do we have 
any sort of a criteria for what parks or what these areas ought 
to be? Basically, what do you measure it against?
    Mr. Smith. I am not expert in our planning phases, but yes, 
the Park Service does have planning criteria for almost----
    Senator Thomas. I am not talking about planning. I am 
talking about acceptance. What do you have as a criteria to 
accept it as a park? I know you cannot give me the details, but 
do you have one?
    Mr. Smith. Senator, I could tell you that I probably should 
provide a detailed answer for the record, because I am not a 
planning expert, but there are criteria. The Park Service does 
recommend--of course, most of the time we react to what 
Congress has asked us to do as far as theme studies or area 
studies, and once we put those into our planning process there 
are very definite criteria, and I can certainly provide that 
for the record.
    Senator Thomas. What is a theme study?
    Mr. Smith. Theme studies are--well, Cold War is one.
    Senator Thomas. That is what I am asking you. What does 
theme study mean?
    Mr. Smith. It means to capture the entire history of an 
event, or of actions.
    Senator Thomas. How many of those have you done?
    Mr. Smith. I could not provide that number. Many theme 
studies have been done, and I could certainly provide that for 
the record.
    Senator Thomas. Well, I wish you would.
    It seems like that is a pretty broad issue. I have a Cold 
War thing out in South Dakota. There is a number of them. I do 
not know what it involves. What is it going to mean, all the 
information work that was gathered by the CIA and so on?
    Senator Smith. It would probably be everything from the 
late forties until 1991 that reflect what, among other things, 
the Department of Defense just awarded a ribbon for.
    Senator Thomas. I have a little problem with those things 
in terms of the role of the parks. You will come and say, we do 
not have enough money to keep up the parks we have, and yet we 
have no problem undertaking all of these things that are 
deferred and they do not happen. It is really kind of tough. Do 
you understand what I am saying?
    Mr. Smith. I understand, Senator, but then again, we do 
many of these at the request of the Congress.
    Senator Thomas. Well, of course, but have you turned any 
studies down?
    Mr. Smith. I will provide that for the record also, 
Senator, although I have to tell you, I do not think so. I dare 
say, not turned them down.
    Senator Thomas. Have you ever recommended against one?
    Mr. Smith. Yes, sir. Studies do come back.
    Senator Thomas. I do not recall any.
    Mr. Smith. We will provide that for the record. I will find 
several, I can promise you that, Senator.
    Senator Thomas. And this study puts in various conditions 
which you have now changed since the study came out.
    Mr. Smith. This is a very complex piece of legislation, 
Senator, yes.
    Senator Thomas. You mentioned Virginia Beach. Is it just a 
beach, or is it also the island?
    Mr. Smith. The testimony we gave today is the 77 acres 
involved in the actual beach on Virginia Key.
    Senator Thomas. What about the 1,000-acre island?
    Mr. Smith. The 1,000 acre does have other resources, but it 
is something we would not want to include in this bill. In 
fact, from the description that Senator Nelson gave it, it 
sounds like a national wildlife refuge to me, and not a unit of 
the Park Service.
    Senator Thomas. Is it in the bill now?
    Mr. Smith. No. In the bill is the 77 acres. That is why we 
did the clarification of the park, of the beach park. It limits 
it to the 77 acres of that much larger pristine island.
    Senator Thomas. On the Black Canyon, I have to be careful 
of that one. Is some of that conservation easement on lands 
that are in the park?
    Mr. Smith. I was briefed on the map today. The exchanges 
all involve three of the four exchanges involve the park 
itself. One of these involves the BLM land, which is in the 
conservation area.
    Senator Thomas. I guess my question was, is it normal to 
have fee lands in a park with a conservation easement? Maybe 
that is not the case.
    Mr. Smith. It has not been anywhere near as normal in the 
West. In fact, we had that discussion today earlier, as I was 
briefed on the bill. It is not, but they have had tremendous 
success around Black Canyon of the Gunnison with easements, 
with willing landowners, with the various conservation groups 
that work in land trust, and in this particular unit of the 
system it is working.
    It lets families keep them in family ranching, and it 
accomplishes all of the environmental conservation needs that 
the Park Service has, and certainly provides the access for the 
public that is sought out there in some of these canyons and 
along some of those roads. It is a very unique system for the 
West, what has happened at Black Canyon of the Gunnison.
    Senator Thomas. It is very difficult to keep grazing in, I 
can tell you from experience in Grand Teton.
    Mr. Smith. I hear you, Senator, and we broached that today. 
I first testified on Black Canyon of the Gunnison in 1984, 
before this committee or the House, when it was going to have 
its first edition, and grazing rights were such a major issue 
then, and I certainly know how that works.
    Senator Thomas. I have taken too long, but this Moccasin 
Bend, that is owned now by the city, is it not?
    Mr. Smith. A combination of city and county.
    Senator Thomas. So I suppose, and I am sure the gentlemen 
will bear me down on this, but they could go ahead and do this 
themselves, make it a city park, could they not?
    Mr. Smith. They certainly have protected a tremendous 
amount of this acreage, because it is all wooded. They 
certainly do not have any other intention of building anything 
else on these lands. In other words, they are not thinking 
about any other of these, quote, incompatible uses, but it does 
have a national significance that they are trying to capture 
here also, and that would be to become a unit, but they have no 
other plans to develop it any further than it is. We have 
addressed all of the incompatible uses that are already there.
    Senator Thomas. Finally, you say in there you resist making 
recommendations as to this theme on the Cold War.
    Mr. Smith. I am sorry, Senator, I did not understand.
    Senator Thomas. You do not want to make recommendations to 
the Congress. You say, as a matter of fact, it is illegal.
    Mr. Smith. Oh, I think we are talking about, that is the 
constitutional issue, I guess, with the Eleventh Amendment of 
technically how the executive branch and the legislative branch 
of government work. It is a minor discussion in the testimony. 
Let me read exactly the Justice Department's concerns on that, 
Senator, for the record. Which bill number again, I am sorry?
    Senator Thomas. S. 1257. Well, the point is, I have a bill 
that I had sometime ago that specifically has that in there. 
The Park Service makes a recommendation to the Congress.
    Mr. Smith. Mr. Thomas, in addition we have been informed by 
the Department of Justice that the provisions of the bill that 
would require the Secretary of the Interior to make 
recommendations to Congress concerning Federal protection for 
Cold War sites appear to violate the Recommendations Clause of 
the Constitution, which reserves to the President the power to 
decide whether it is necessary or expedient for the executive 
branch to make legislative policy recommendations to the 
Congress. The administration would be pleased to provide 
language to remedy the bill's constitutional defects.
    Senator Thomas. I suggest to you it is not a constitutional 
defect. If it is, they have already done it a number of times. 
Thank you, sir.
    Senator Akaka. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman, and Mr. Smith, 
thank the folks in the administration for supporting the Black 
Canyon bill. My colleague's questions notwithstanding, you just 
keep supporting it. It is a good bill. I do not have your 
written testimony so I was jotting some notes when you were 
speaking, and on S. 1257 I think you mentioned, you said you 
recommended the deletion of the section that set up the 
advisory committee, is that correct?
    Mr. Smith. That is correct, Senator.
    Senator Campbell. What was the reason you gave for 
recommending that?
    Mr. Smith. Number 1, Senator, the time it takes to create a 
FACA type of commission, to get that through, and then to what 
it would really add as you go through the planning phase, plus, 
once you have named it, any time you want to have anything done 
on it you have to do notification in the Federal Register, you 
have to give weeks' notice that you are going to have any kind 
of a meeting on it, or whatever else, and it would slow the 
planning process, especially on something as broad as this is 
going to be. We just do not think it is necessary to conduct a 
very thorough study on Cold War era themes.
    Senator Campbell. I know most of the parks have some form 
of advisory committee, but I think most of them are set up by 
park authority. They do that, and some work very well. The one 
at Mesa Verde works very well. The one at Little Bighorn 
National Park in Montana got crossways so much with the Park 
Service they finally were disbanded, in fact, when they began 
to think they could make the decisions for the Park Service.
    Are most parks, do they have advisory commissions set up by 
legislation?
    Mr. Smith. Yes, they do, Senator. Probably of the 386 
units, or 385 units of the system, there are probably right now 
about 50 active advisory committees, and they are advisory, 
although, as you state, some think they go beyond that, but it 
is about 50 of our 385 units still have active advisory 
committees.
    Senator Campbell. So this would set a new precedent, then. 
You just do not want one at this park, is that correct?
    Mr. Smith. An advisory group to do a study would set a 
precedent.
    Senator Campbell. The Moccasin Bend bill you said that it 
would allow the Park Service to acquire the golf course when it 
is no longer used as a golf course. Is it your understanding 
that that would be like a first right of refusal to acquire it 
if it is not used as a park--excuse me, as a golf course any 
more. Could they sell it to somebody else?
    Mr. Smith. Senator, I am not sure of the exact detail on 
that. I am not sure whether that is privately owned or country 
owned. In the discussions we have had on that, it is the full 
intent of the parties we are talking about negotiating with 
that it would not be used for anything else except a golf 
course. I can get a clarification for that, if you would like.
    Senator Campbell. If you would get that. I and some people 
who really have an interest in parks always worry about some 
private land becoming a Coney Island next to the park because 
of the number of tourists the parks always draw.
    My last question of you is, has there been a cost estimate 
done at all in the movement or cleanup of the firearms range 
and the hospital, both of which I assume have some contaminated 
residue there that would have to comply with EPA standards?
    Mr. Smith. We are not at the stage where that would be 
done, but we did raise in the testimony, Senator, we do have 
concerns about what that would cost. We obviously would prefer 
that that would be transferred to the Park Service cleaned up. 
The cost for firing ranges is not that much. I believe that 
what happened out at Lorton here for the D.C. range, which had 
been used for years, was in the several hundred thousand dollar 
range. You basically just have to dig and get the lead out of 
the ground.
    For what is at that mental health hospital, I just have no 
idea, and we are certainly not at the stage to get those type 
of costs yet.
    Senator Campbell. Well, I have been around here for a 
while, and I would guess that even if it was supposed to done 
through local resources, that one way or another the process 
would end up where they came to Congress and asked for the 
money to do it, so that I would be interested in knowing what 
the cost would be for that cleanup, but you will not have that, 
obviously, for a while.
    I have no further questions, Mr. Chairman. Thank you.
    Senator Akaka. Thank you very much for your questions. 
Again, thank you very much, Mr. Smith, for your responses, and 
we look forward to any information that has been requested.
    Mr. Smith. Thank you, Mr. Chairman, and we look forward to 
answering any questions the committee does forward to us to 
answer in writing.
    Senator Akaka. Thank you very much. Let me introduce our 
next panel of witnesses to come forward. Mr. Steve Ririe, 
chairman of the Silent Heroes of the Cold War National Memorial 
Committee, and Jay Mills, vice president of the Friends of 
Moccasin Bend. I would like to remind each of you that your 
written testimony will be included in full in the hearing 
record, so you may summarize your remarks, and you may begin, 
Mr. Ririe, when you are ready.
    Mr. Ririe. Thank you, Mr. Chairman. I would like to first 
make a comment. As requested by Senator Reid, who introduced 
this legislation last July, he is not able to attend today 
because of his duties on the Senate floor, but with the 
chairman's permission Senator Reid will offer his statement to 
be inserted into the record at a later time.
    Senator Akaka. Without objection, it will be included in 
the record.
    Mr. Ririe. I would like to also include that Senator Reid 
wanted me to mention that he feels very strongly the need to 
acknowledge the Nation's heroes of the Cold War. We visited 
several times in the past in Nevada, and he feels just as 
passionate as I do that this is legislation that would be 
appropriate and would be of value.
    [The prepared statement of Senator Reid follows:]
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    The Cold War, which lasted 50 years, was the longest war in United 
States history, and the most expensive, costing trillions of dollars.
    At its conclusion, America emerged as the only remaining superpower 
in the world.
    Because we faced an enemy with tremendous nuclear capabilities, it 
was the most dangerous conflict our country ever faced.
    The threat of mass destruction left a permanent mark on American 
life and politics.
    Those that won this war did so in obscurity.
    What is often overlooked is that hundreds if not thousands of 
Americans died during the Cold War as America built its strategic 
nuclear arsenal and flew thousands of reconnaissance missions over 
enemy territory.
    Those who gave their lives in the Cold War have never been properly 
honored.
    Last July, I introduced a bill that requires the Department of the 
Interior to conduct a study to identify sites and resources to 
commemorate heroes of the Cold War and to interpret the Cold War for 
future generations.
    My legislation directs the Secretary of the Interior to establish a 
``Cold War Advisory Committee'' to oversee the inventory of Cold War 
sites and resources
          --for potential inclusion in the National Part System
          --as national historic landmarks
          --or other appropriate designations.
    The Advisory Committee will work closely with State and local 
governments and local historical organizations. The committee's 
starting point will be a Cold War study completed by the Secretary of 
Defense under the 1991 Defense Appropriations Act.
    Obvious Cold War sites of significance include:

  <bullet> Intercontinental Ballistic Missiles
  <bullet> flight training centers
  <bullet> communications and command centers (such as Cheyenne 
        Mountain, Colorado).
  <bullet> nuclear weapons test sites (such as the Nevada test site), 
        and
  <bullet> strategic and tactical resources.

    Perhaps no other state in the Union has played a more significant 
role than Nevada in winning the Cold War.
    The Nevada Test Site is a high-technology engineering marvel where 
the United States developed, tested, and perfected a nuclear deterrent 
which is the cornerstone of America's security and leadership among 
nations.
    The Naval Air Station at Fallon is the Navy's premiere tactical air 
warfare training facility.
    The Air Warfare Center at Nellis Air Force Base has the largest 
training range in the United States to ensure that America's pilots 
will prevail in any armed conflict.
    In testimony before this committee, Steve Ririe will recount the 
story of 14 men who perished in a plane crash on Mount Charleston in 
Nevada nearly half a century ago.
    These men were involved in a top-secret project, developing the U-2 
reconnaissance aircraft, the most advanced spy plane the world had ever 
seen.
    Their success was critical to ensuring the United States would be 
ready to face the challenges of a destabilized world. Experts have 
credited the U-2 with avoiding World War III.
    The U-2 is still vital to the American military today, and is being 
used to protect our interests around the globe.
    This story is just one of thousands of stories of men and women who 
worked in secret to bring us safely through the Cold War conflict.
    Our nation needs to recognize the veterans of the longest war in 
United States history--a battle which also had the highest stakes.
    I urge my colleagues to support this long overdue tribute to the 
contribution and sacrifice of those Cold War heroes for the cause of 
freedom.

 STATEMENT OF STEVE RIRIE, CHAIRMAN, SILENT HEROES OF THE COLD 
         WAR NATIONAL MEMORIAL COMMITTEE, LAS VEGAS, NV

    Mr. Ririe. I have a prepared statement, and I would like to 
read that at this time if I can.
    Senator Akaka. Please proceed.
    Mr. Ririe. Mr. Chairman, I would like to thank you for the 
opportunity to speak today in support of a bill that requires 
the Secretary of the Interior to conduct a theme study to 
identify sites and resources to commemorate and interpret the 
Cold War.
    James Billington called the Cold War the central conflict 
of the second half of the 20th century, the longest and most 
unconventional war of the entire modern era, an altogether 
unprecedented experience for Americans. The Cold War was the 
turning point for America as well as for the world. The 
development and proliferation of thermonuclear technology has 
forever changed our society, our politics, our attitudes, and 
most certainly our challenges.
    Although the Cold War was the longest American war, it 
remains the least-memorialized. This is largely due to the very 
nature of the conflict itself. The Cold War was fought 
primarily in secret. Those who won the Cold War often worked in 
obscurity, unable to discuss their involvement with their 
families. Many believe the Cold War was little more than a 
series of heated verbal exchanges between two superpowers. 
However, this is a gross oversimplification and absolutely not 
true.
    Consider the reconnaissance element alone, which harbored 
very real dangers for the personnel involved. During the years 
of 1945 to 1977, a total of 40 reconnaissance aircraft were 
shot down. The secrecy of the reconnaissance programs prevented 
recognition of the slain military personnel. Thousands of other 
unknown heroes were secretly lost during the Cold War and 
remain un-acknowledged.
    Passing S. 1257 is a step in the right direction to 
acknowledge our Nation's unknown and silent heroes. This bill 
will allocate necessary funds for the identification and 
preservation of Cold War sites and resources. This bill will 
establish an advisory committee that will develop an 
interpretive handbook on the Cold War to tell the story of the 
Cold War and its heroes.
    Preserving these historic sites will aid many American 
families whose loved ones were so central to the secret efforts 
of the Cold War that the true cause of their deaths was, of 
necessity, classified information. These sites and the handbook 
will provide the much-needed closure to these families as they 
finally understand where, when, and why their loved ones died.
    Mr. Chairman, I would like to take a moment to relate a 
story of one such group of Cold War heroes. The winter of 1955 
was not unlike any other winter at its time. Children learned 
civil defense skills at school as they were instructed to duck 
and cover. At home, they watched the parade of intercontinental 
ballistic missiles towed by military trucks through Red Square 
on the evening news. Civil defense was deadly serious as the 
prospect of a nuclear conflict loomed in the mind of the 
average American.
    The morning of November 17, 1955, seemed like an ordinary 
Thursday morning. At 6:58 a.m., 14 men boarded a C-54 military 
air transport shuttle in Burbank, California, at Lockheed's air 
terminal. On board were Air Force personnel, engineers, 
scientists, and CIA officials. Their destination was a top 
secret air base and testing ground and code named Water Town. 
Today, we call this secret military facility area 51. This 
remote desert location housed one of the United States' most 
secret Cold War projects, the U-2 reconnaissance aircraft.
    Not long after take-off, the C-54 encountered an early 
winter storm. Soon they found themselves battered by high winds 
and snow flurries. Due to the restrictions flying in and out of 
area 51 they were ordered to fly low elevation. Standard 
operating procedure barred them from using navigational 
instruments or the radio in order to maintain secrecy. The crew 
felt very alone and cut off. When the situation became even 
more desperate, they decided to break radio silence and attempt 
to converse with Water Town.
    I can see my time is nearly up. I do, however, feel that it 
is important, if I can, to enter into the record the names of 
the men who died on Mount Charleston on our behalf.
    Senator Akaka. We will include it in the record, and thank 
you very much for your testimony.
    [The prepared statement of Mr. Ririe follows:]
Prepared Statement of Steve Rirer, Chairman, Silent Heroes of the Cold 
             War National Memorial Committee, Las Vegas, NV
    Mr. Chairman, I'd like to thank you for the opportunity to speak 
today in support of a bill that requires the Secretary of the Interior 
to conduct a theme study to identify sites and resources to commemorate 
and interpret the Cold War.
    James Billington called the Cold War, ``. . . the central conflict 
of the second half of the 20th Century, the longest and most 
unconventional war of the entire modern era--an altogether 
unprecedented experience for Americans.'' The Cold War was a turning 
point for America, as well as the world. The development and 
proliferation of thermonuclear technology has forever changed our 
society, our politics, our attitudes and most certainly, our 
challenges.
    Although the Cold War was the longest American war, it remains the 
least memorialized. This is largely due to the very nature of the 
conflict itself. The Cold War was fought primarily in secret. Those who 
won the Cold War often worked in obscurity, unable to discuss their 
involvement with their families. Many believe the Cold War was little 
more than a series of heated verbal exchanges between two super powers; 
however, this is a gross oversimplification and absolutely not true. 
Consider the reconnaissance element alone, which harbored very real 
dangers for the personnel involved. During the years of 1945-1977, a 
total of 40 reconnaissance aircraft were shot down. The secrecy of the 
reconnaissance programs prevented recognition of the slain military 
personnel. Thousands of other unknown heroes were secretly lost during 
the Cold War and remain unacknowledged.
    Passing S. 1257 is a step in the right direction to acknowledge our 
nation's unknown and silent heroes. This bill will allocate necessary 
funds for the identification and preservation of Cold War sites and 
resources. This bill will establish an Advisory Committee that will 
develop an interpretive handbook on the Cold War to tell the story of 
the Cold War and its heroes. Preserving these historic sites will aid 
many American families whose loved ones were so central to the secret 
efforts of the Cold War that the true cause of their deaths was, of 
necessity, classified information. These sites and the handbook will 
provide the much needed closure to these families, as they finally 
understand where, when, and why their loved ones died.
    Mr. Chairman, I'd like to take a moment to relate a story of one 
group of cold war heroes.
    The winter of 1955 was not unlike any other winter. Children 
learned civil defense skills at school as they were instructed to duck 
and cover. At home they watched the parade of ICBM's towed by military 
trucks through Red Square on the evening news. Civil Defense was deadly 
serious as the prospect of a nuclear conflict loomed in the mind of the 
average American.
    The morning of November 17, 1955 seemed like an ordinary Thursday 
morning. At 6:58 a.m. fourteen men boarded a C-54 Military Air 
Transport Shuttle in Burbank, CA at the Lockheed's air terminal. On 
board were Air Force personnel, engineers, scientists, and CIA 
officials. Their destination was a top-secret air base and testing 
ground then code named ``Water Town.'' Today we call this secret 
military facility ``Area 51''. This remote Nevada desert installation 
housed one of the United States most secret cold war projects--the U-2 
reconnaissance aircraft.
    Not long after takeoff, the C-54 encountered an early winter storm. 
Soon they found themselves battered by high winds and snow flurries. 
Due to restrictions flying in and out of Area 51, they were ordered to 
fly low elevation. Standard operating procedure barred them from using 
navigation instruments or the radio in order to maintain secrecy.The 
crew felt very alone and cut off. When the situation became even more 
desperate, they decided to break radio silence in an attempt to 
converse with Water Town's airstrip tower. This breach in operation 
procedure would only have occurred if the pilot sensed they were in 
real trouble. Unfortunately, the storm was too fierce and radio 
transmission too poor. No return transmission was received.
    At 8:19 a.m., the C-54 made an emergency maneuver to avoid high 
terrain and slammed into a nearly 12,000 foot mountain in Nevada, 
killing all 14 on board. Not only was the flight itself classified 
``Top-Secret'' but the crash and subsequent body recovery were also 
kept secret. The families of those who perished would have to be kept 
in the dark. It has taken over four decades for the families to learn 
the truth about their loved one's secret lives and untimely deaths.
    In closing, I believe it is appropriate to enter into the record 
the names of the men who perished on our behalf on November 17, 1955 on 
Mt. Charleston, NV. Let it be known that these individuals are Silent 
Heroes of the Cold War.
    George Manual Pappas Jr., Paul Eugene Winham, Clayton D. Farris, 
Guy R. Fasolas, John H. Gaines, Edwin J. Urolatis, James W. Brown, 
William H. Marr, James F. Bray, Rodney H. Kreimendahl, Terence J. 
O'Donnell, Fred F. Hanks, Harold C. Silent and Richard J. Hruda.
    It is my hope that in passing S. 1257, a National Memorial to the 
Cold War will one day be a reality. In conjunction with the Cold War 
Museum founded by Gary Powers Jr., son of Francis Gary Powers who was 
shot down over the former Soviet Union in 1960 the National Memorial 
and Museum will honor all those who lost their lives during the longest 
and most dangerous conflict our country ever faced.

    Senator Akaka. We would like to hear from Jay Mills, and 
following this we will have questions of both of you.

   STATEMENT OF JAY MILLS, VICE-PRESIDENT OF THE FRIENDS OF 
                 MOCCASIN BEND, CHATTANOOGA, TN

    Mr. Mills. I appreciate the opportunity to come before your 
committee. My name is Jay Mills, vice president of Friends of 
Moccasin Bend National Park, and I speak on its behalf. The 
Friends is a community group dedicated to preserving, 
protecting, and interpreting one of the most outstanding and 
beautiful sites of American cultural history, Moccasin Bend.
    There is a long history to this effort. Industrial 
development threatened Moccasin Bend as early as the 1880's. 
Representing a broad coalition of community leaders, Senators 
Kefauver and Keller in 1950 initiated legislation that was 
approved by Congress and signed by President Truman authorizing 
the addition of up to 1,400 acres on Moccasin Bend to the 
Chicamauga and Chattanooga National Military Park.
    Although that effort was suspended by the failure of then 
Governor Frank Clemmon to take the final necessary measures, 
today's legislation gives new life to a decades-old effort. 
This cause is worthy, because Moccasin Bend contains one of the 
most important and rich complexes of archaeological and 
historical sites to be found inside any city in the United 
States, chronicling 10,000-plus years of human history.
    Themes included in this resource are: the peopling of the 
continent during the Paleo-Indian period, adaptation to the 
changing environment, and the emergence of regional distinct 
cultures through the archaic periods, transitioning to 
permanent settlement into the woodland period, along with long 
distance trade, the rise of politically powerful fortified 
population centers during the Mississippian period, contact 
with Spanish explorers and the consequences of academic, 
military, and economic destabilization and collapse, and the 
cultural survival of those people, the Muskogee, also known as 
the Creek, the frontier and the appearance of the Cherokee and 
their tenure of the land and their removal along the Trail of 
Tears. Chattanooga was one of the major ports of deportation.
    Moccasin Bend also played a pivotal role in the Civil War. 
Union artillery pieces on Moccasin Bend bombarded defensive 
routes across Lookout Mountain and allowed Hooker's Army and 
Sherman's Army to break the siege, join Grant, and rout the 
Confederates, turning a Union defeat at Chicamauga into a 
victory at Chattanooga, giving President Lincoln the supply 
route he needed through the mountains to press the war through 
the Atlantic States.
    As noted in the findings of the Park Service cooperative 
management plan, nowhere in the park system or State, local or 
private parks is such a diverse array of scenes significant to 
this Nation's history currently protected and interpreted. 
National park status will provide comprehensive protection and 
interpretation of these precious nationally significant 
resources and ensure their professional development into a 
highly valued and attractive asset.
    The public benefits are enormous. It would establish a 911-
acre green space contiguous to downtown Chattanooga, as you 
will note on the map. The city is there underneath the text on 
the right, the city center. It would unlock this resource for 
recreation, education, and its economic benefits. The park 
would connect with Chattanooga's revitalized waterfront in 
downtown via the nationally renowned river walk system, and the 
interpretive center will serve as the gateway to the park, and 
the Friends strive to make the interpretive center equal in 
quality and attractiveness of the Tennessee Aquarium.
    A 1996 study by Thomas J. Martins & Associates projects 
that the Moccasin Bend National Historic Site and Interpretive 
Center will generate $29 million annually in economic benefit 
within the State of Tennessee, and $21 million of that within 
the county on an ongoing basis.
    The site is located next to downtown Chattanooga and close 
to Interstates 24 and 75, which cross in Chattanooga, making it 
highly accessible to the public for education and enjoyment.
    The Friends for the last 7 years have worked hard to lead 
an all-inclusive community census in support of the park. Both 
Hamilton County and the city of Chattanooga have passed 
resolutions requesting elected officials to work toward 
including Moccasin Bend into the National Park Service. The 
Friends have secured endorsements from over 25 community 
organizations, and petitions of over 6,000 citizen signatures.
    Additionally, the editorial staffs of both newspapers have 
strongly endorsed the project and given extensive coverage 
throughout its development. The Trust for Public Land, the 
Nature Conservancy, and the Chattanooga Area Convention Center 
and Visitors Bureau have strongly endorsed the project. The 
Friends have developed a vibrant partnership with several Creek 
and Cherokee Nations and Tribes whose heritage is at issue 
here. The development of the legislation before you today has 
been followed and shaped by their leaders and endorsed by the 
Cultural Committee of the Intertribal Council of the Five 
Civilized Tribes, that is, the Muskogee, Cherokee, Chickasaw, 
Choctaw, and Seminole Nations.
    Chattanooga in recent years has become well-known for its 
public-private partnership successes, the Tennessee River Walk, 
Coolidge Park, Tennessee Aquarium, the Creative Discovery 
Museum, and new urban schools. Now the community's leadership 
has pledged and is committed to execute a new riverfront plan 
finalized earlier this month by Hargreaves & Associates of 
Boston.
    The plan calls for mixed use redevelopment along both banks 
of nearly a mile of the downtown riverfront, anchored at one 
end by the future Moccasin Bend Interpretive Center, the 
gateway to Moccasin Bend National Historic Site. The leading 
foundations in Chattanooga, as well as individuals, have lent 
their support to bring the project to this point, and the 
Friends is expanding those efforts, knowing that it will take 
broad public-private support to develop a park and interpretive 
programming with the highest level of appeal and impact.
    The Friends continues a highly proactive effort to make 
this project a great success, and will work closely with the 
National Park Service into the future to conceive, build, 
promote, and maintain a vibrant new national historic site. I 
would like thank the entire Tennessee delegation for their 
support of this bill, and especially the leadership of Senators 
Thomas, Fred Thompson, Bill Frist, and Congressman Zach Wamp 
for their success in forging a broad consensus of support for 
the project. The Friends welcomes any suggestions or comments 
in pursuit of what we believe will be a magnificent project.
    Thank you very much for your interest in Moccasin Bend 
National Historic Site.
    [The prepared statement of Mr. Mills follows:]
   Prepared Statement of Jay Mills, Vice-President of the Friends of 
                     Moccasin Bend, Chattanooga, TN
    I appreciate the opportunity to come before your committee. My name 
is Jay Mills, Vice-President of The Friends of Moccasin Bend National 
Park and I speak on its behalf. The Friends is a community group 
dedicated to preserving, protecting and interpreting one of the most 
outstanding and beautiful sites of American cultural history--Moccasin 
Bend.
    There is a long history to this effort. Industrial development 
threatened Moccasin Bend as early as the 1880s. Representing a broad 
coalition of business and community leaders, Senators Kefaufer and 
McKeller in 1950 initiated legislation that was approved by Congress 
and signed by President Harry Truman authorizing the addition of up to 
1,400 acres on Moccasin Bend to the Chickamauga and Chattanooga 
National Military Park.
    Although that effort was suspended by the failure of Governor Frank 
Clement to take final necessary measures, today's proposed legislation 
gives new life to a decades old effort. This cause is worthy because 
Moccasin Bend contains one of the most important and rich complexes of 
archaeological and historical sites to be found inside any city in the 
United States, chronicling 10,500 plus years of human history. I have 
personally studied archaeology for nearly 20 years, and worked in North 
America and Africa. It's a highly significant site.
    The themes included in these resources are:

  <bullet> The peopling of the continent;
  <bullet> Emergence of regionally distinct cultures;
  <bullet> Transition to permanent settlement;
  <bullet> Long distance trade;
  <bullet> Rise of politically powerful fortified population centers;
  <bullet> Contact with Spanish explorers and the consequences of 
        epidemic, military and economic destabilization, and collapse, 
        and cultural survival;
  <bullet> Frontier and Cherokee tenure including the defiant Cherokee 
        Chief, Dragging Canoe, whose villages were along this section 
        of the river;
  <bullet> The Cherokee removal along the Trail of Tears;
  <bullet> Moccasin Bend also played a pivotal role in the Civil War. 
        Union artillery pieces on the Moccasin Point bombarded defense 
        routes on Lookout Mountain and allowed Hooker's and Sherman's 
        Army to break the siege, join Grant and route the confederates, 
        turning a union defeat at Chickamauga into a victory at 
        Chattanooga. This gave President Lincoln the supply route he 
        needed through the mountains to press the war to the Atlantic 
        States.

    As noted in the findings of the National Park Service Cooperative 
Management Plan, nowhere within the park service or in state, local or 
private parks is such a diverse array of themes significant to this 
nation's history currently protected and interpreted.
    The site, located next to downtown Chattanooga and close to 
Interstates 24 and 75, is highly accessible to the public for education 
and enjoyment.
    National Park status will provide comprehensive protection and 
interpretation of these precious, nationally significant resources and 
assure their professional development into highly valued and attractive 
assets. The National Park Service is uniquely qualified to embrace the 
full range of these responsibilities. Citizen's groups have insisted on 
that level of protection and oversight.
    More specifically, the Park Service is uniquely qualified to 
provide the strength of federal law to protect the resources from 
plunder and other threats. It also offers the greatest assurance that 
the resources are protected into perpetuity, along with the highest 
level of professionalism in planning how the park will be interpreted, 
experienced and managed. And, only through federal management is there 
the assurance that the peoples whose histories are to be interpreted 
will hereafter play a prominent role in determining how their history 
will be interpreted.
    The public benefits are enormous.
    Establishing the Unit would preserve a 911-acre green-space 
contiguous to downtown Chattanooga while unlocking it for passive 
recreation, education and its economic benefits.
    The park would connect with Chattanooga's revitalized waterfront 
and downtown via the nationally renowned river-walk system, and the 
interpretive center will serve as a gateway to the park. The Friends 
strive for an interpretive center equaling the quality and attraction 
of the Tennessee Aquarium.
    A 1996 study by Thomas J. Martin and Associates, whose estimates 
for the Tennessee Aquarium proved conservative, projects that a 
Moccasin Bend National Historic Site and Interpretive Center will 
generate $29 million annually in economic benefits within the State of 
Tennessee and $21 million annually within the county on an ongoing 
basis.
    The Friends for the last seven years has worked very hard to lead 
an all-inclusive community consensus in support of a National Park. 
Both Hamilton County and the City of Chattanooga have passed 
resolutions requesting elected officials to work toward including 
Moccasin Bend in the National Park Service. The Friends has secured 
endorsements from over 25 community and petitions with over 6,000 
citizen signatures. The editorial staffs of both newspapers have 
strongly endorsed the project and given extensive coverage throughout 
its development. The Trust for Public Land, the Nature Conservancy, and 
the Chattanooga Area Convention Center and Visitors Bureau have 
strongly endorsed the project.
    Early in the process we opened communications with the federally 
recognized tribes whose heritage is at issue here, most notably the 
several Creek and Cherokee nations and tribes, and have developed a 
vibrant partnership with them. The development of the legislation 
before you today has been followed and shaped by their leaders and 
endorsed by the cultural committee of the Inter-tribal Council of the 
Five Civilized Tribes (the Muscogee, Cherokee, Chickasaw, Choctaw and 
Seminole Nations).
    Chattanooga has in recent years become well known for its public/
private partnership successes: The Tennessee River Walk, Coolidge Park, 
The Tennessee Aquarium, the Creative Discovery Museum, New Urban 
Schools, etc. Now the community's leadership has pledged and is 
committed to execute a new riverfront plan finalized earlier this month 
by Hargreaves Associates of Boston. The plan calls for mixed-use 
redevelopment along both banks of nearly a mile of downtown riverfront, 
anchored at one end by the future Moccasin Bend Interpretive Center, 
the gateway to the Moccasin Bend National Historic Site. The leading 
foundations in Chattanooga, as well as individuals, have lent their 
support to bring the project to this point, and the Friends is 
expanding those efforts, knowing that it will take broad public-private 
support to develop a park and interpretive programming with the highest 
level of appeal and impact.
    The Friends continues a highly pro-active effort to make this 
project a great success and will work closely with the National Park 
Service into the future to conceive, build, promote and maintain a 
vibrant new National Historic Site. I would like to thank the entire 
Tennessee delegation for their support of this bill, and especially the 
leadership of Senators Fred Thompson and Bill Frist and Congressman 
Zach Wamp for their success in forging a broad consensus of support for 
the project. The Friends welcomes any suggestions or comments in 
pursuit of what we believe will be a magnificent project.
    Thank you very much for your interest in a Moccasin Bend National 
Historic Site.

    Senator Akaka. Thank you for your statements.
    Mr. Mills, based on your familiarity with this site, is 
there any way to mitigate the impact of the golf course, the 
mental health institute, and other uses found to be 
incompatible by the Park Service on the site's archaeological 
and other resources?
    Mr. Mills. If I understand your question correctly, is 
there a way to mitigate that, I think it is a question of the 
Friends as a group, and the community at large would like to 
have a part. We also would like to--as quickly as possible, one 
that would look like a park, one that would have these uses not 
on that property as soon as possible. I think it is a question 
of us trying to tighten down those dates and get them as soon 
as possible.
    Senator Akaka. Mr. Ririe, I previously asked Mr. Smith 
about alternative methods of public input into the Cold War 
theme study as a substitute for a formal advisory committee. Do 
you have any recommendations regarding how academics or other 
experts could be usefully involved in the theme study?
    Mr. Ririe. Actually, I do. There are several experts that I 
am aware of. There are several that have been working on Cold 
War studies in the past. Harvard has done extensive work on 
Cold War studies. Also, there is a gentleman by the name of 
Gary Powers, Jr., and he is the son of Francis Gary Powers that 
was shot down over Russia in 1960. He has been working for over 
5 years on a repository and a Cold War museum. He has done a 
lot of work, and would be an excellent addition to an advisory 
committee.
    Senator Akaka. Thank you. I will defer for further 
questions to Senator Thomas.
    Senator Thomas. Thanks, Mr. Chairman. I really do not have 
many. I thank both of you for being here and for the efforts 
you make with respect to the issues you represent. I think it 
is very important that you do that.
    I might ask, on the Cold War, I guess at least part of the 
idea would be to establish, identify areas then that would be 
made some kind of Federal reserve or something.
    Mr. Ririe. Exactly. I believe that some of these areas, 
some of these sites might perhaps be a part of the Park Service 
now. I know there are others. There are missile silos, there 
are the Nike sites, there are extensive sites in different 
States. We would like to find out what those sites are, 
identify those sites, and then see about the feasibility of 
including those into the system.
    Senator Thomas. There are missile sites, 1,500 of them, as 
a matter of fact. Some of them are still active.
    Mr. Mills, thank you very much for your presentation, and 
again for all the work that obviously you have done. I hope we 
can find a way to do something that will be helpful. I suppose 
we will have to take a look at a number of different options, 
because this is a little unusual setting to come into a 
national park because of those things that are there, but 
certainly we will continue to work at it and see if we can find 
some way to help preserve it. The county and the city are not 
interested in making it a local park?
    Mr. Mills. That was looked at during the cooperative 
management plan process, and the city and the county were very 
much a part of those processes. The staff, the executive, and 
the commissioners themselves attended those meetings.
    They have restrained from allowing development of various 
sorts out there. Some have occurred, others have not, expressly 
because of the knowledge of how important it is, which has been 
growing over the years. It was only in 1984 that it was 
demonstrated that the Spanish contact material out there is of 
intact settlement. The Mississippian Village burned. Spanish 
contact materials were being reported by the people in the 
seventies who were looting the site. There was word of mouth.
    The Native American reserve force was established by 
several individuals of Native American ancestry in the 
community, and they became deputized and effectively stopped 
the looting at that time. In 1984, we became aware----
    Senator Thomas. Is the city interested, and the county, in 
doing it themselves, is what I am saying?
    Mr. Mills. I do not think they are. I think they are 
interested in seeing it turned into a park. In terms of doing 
it justice, that is what the community--all the people involved 
in the process said it would not provide the protection that 
Federal legislation would with Federal laws.
    Senator Thomas. Okay. Thank you.
    Senator Akaka. Thank you very much. I have no further 
questions. I want to thank both of you and all of the witnesses 
who have appeared before this subcommittee today. The hearing 
record will remain open for 2 weeks if anyone wishes to submit 
any comments or statements to be included in the record.
    Again, thank you very much for your testimony, and your 
responses will be helpful to the committee. The hearing is 
adjourned.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                             Bratton & McClow, LLC,
                                          Attorneys at Law,
                                        Gunnison, CO, May 30, 2002.
Hon. Ben Nighthorse Campbell,
U.S. Senate, Russell Senate Office Building, Washington, DC.

Re: NCA Boundary Language

    Dear Senator Campbell: I understand that you will be submitting, in 
the near future, a bill to revise the boundary of the Black Canyon of 
the Gunnison National Park and Gunnison Gorge National Conservation 
Area and other purposes. As you know, I have practiced law in Gunnison 
for over 40 years, with special emphasis in water rights, including 
representation of the Upper Gunnison River Water Conservancy District 
since January, 1961. I am therefore very interested in the possible 
impact of the language in this bill upon water rights in our basin. In 
particular, I would like assurance that the legislation does not 
contain any language which could interfere in any way with water rights 
in the Gunnison Basin and that any water rights that may be necessary 
for the purposes of the Act should be obtained in accordance with 
Colorado law. In particular, I would request that you include in the 
Act provisions that address the following:
    1. Nothing in the Act shall constitute an express or implied 
reservation of water for any purpose.
    2. Nothing in the Act nor the permitting authority in other 
applicable provisions of law shall affect any water rights in existence 
prior to the date of the enacting of the Act, including any water 
rights held by the United States, or access to existing facilities.
    3. Any new water rights that the Secretary determines is necessary 
for the purpose of the Act shall be established in accordance with the 
procedural and substantive requirements of the laws of the State of 
Colorado.
    If I can answer any questions you might have about this I will be 
glad to discuss it with you or a member of your staff.
            Very truly yours,
                                                L. Richard Bratton.
                                 ______
                                 
            The Uncompahgre Valley Water Users Association,
                                       Montrose, CO, June 12, 2002.
Hon. Ben Nighthorse Campbell,
U.S. Senate, Russell Senate Office Building, Washington, DC.
    Dear Senator Campbell: We are writing in regards to S. 1944, the 
``Black Canyon of the Gunnison National Park and Gunnison Gorge 
National Conservation Area Boundary Revision Act of 2002.'' We support 
your efforts in this regard. We would ask you to add language to this 
legislation that protects the withdrawn lands under Bureau of 
Reclamation control for the tunnel works and the Gunnison Tunnel 
operations area.
    This land is located in Sec. 10 SE1/4NE1/4 S1/2 NW1/4 S1/2. Section 
11 S1/2, Section 12 N1/2 SW1/4, Section 13, N1/2NW1/4, Section 14 N1/2 
N1/2 all in T 49 N Range W., NMPM. All lands from a line 1/4 mile north 
of Crystal Dam.
    We ask for your support in this action because the National Park 
Service does not need this area and they are not in the irrigation 
business. The Bureau of Reclamation has operated this area with 
Uncompahgre Valley Water users employees for the last 90 plus years. 
Irrigation water and head works for the delivery of irrigation water 
may be even more important now than it was in 1902. Please consider 
this request in your deliberations on the legislation.
    We would ask that in the consideration of the legislation. You 
please add language that ensures the ditches and other water supply 
facilities located within the new conservation area boundaries are not 
adversely affected by this legislation.
            Sincerely,
                                          Marcus W. Catlin.
                                 ______
                                 
                             Board of County Commissioners,
                                 Montrose County, CO, May 29, 2002.
Hon. Ben Nighthorse Campbell,
U.S. Senate, Russell Senate Office Building, Washington, DC.
    Dear Senator Campbell: We are writing in regard to S. 1944, the 
``Black Canyon of the Gunnison National Park and Gunnison Gorge 
National Conservation Area Boundary Revision Act of 2002.'' We strongly 
support your continued efforts in this regard, but urge you to add 
language to this legislation that protects existing water rights.
    Please help ensure that ditches and other water supply facilities 
located within the new conservation area boundaries are not adversely 
affected by this legislation. As you know, irrigation water is 
critically important to Montrose County, particularly during the worst 
drought in Colorado's recorded history.
    Thank you for your consideration and for your continued support of 
Montrose County.
            Sincerely,
                                              Leo M. Large,
                                                          Chairman.
                                 ______
                                 
                             Virginia Key Beach Park Trust,
                                           Miami, FL, June 7, 2002.
Hon. Bill Nelson,
U.S. Senate, Washington, DC.
    Dear Senator Nelson: On behalf of the Board of Directors of 
Virginia Key Beach Park Trust, I am submitting the following remarks to 
be read into the record during the Senate Committee hearing on 
Wednesday, June 12, 2002. We are sorry that we are unable to be present 
for this important matter and trust you too will find that Virginia Key 
Beach Park deserves your support.
    Virginia Key Beach in Miami, Florida, is one of South Florida's, 
and the nations, greatest treasures. It is situated on a 1,000-acre 
barrier island, which has remained exclusively non-residential through 
the years, and retains such unique environmental features as a tropical 
hardwood hammock and a wildlife conservation area. The 77-acre parcel 
of Virginia Key Beach itself is located on the southeast side of the 
island, along Bear Cut, which separates Virginia Key from Key Biscayne.
    This beach is as rich in scenic beauty as it is in historical 
significance. It is not only the only oceanfront property actually 
within the city limits of Miami, it is practically the only place in 
the city where a visitor can enjoy a view of the water and natural 
surroundings uninterrupted by any tall buildings. It is not surprising 
that so special a place should figure prominently in history.
    We know very little of the Parks earliest history. Extensive 
landfill and other alterations over the years have destroyed or covered 
any archaeological finds that may have been there. (A professional 
archaeological survey was performed earlier in June, 2001, which 
reached this conclusion). One of the earliest records of Virginia Key 
is of a skirmish that took place there at Bear Cut on October 22, 1838 
between U.S. Revenue Marines and a group of Seminoles who were camped 
there. However, it is the later history, in the 20th century, for which 
Virginia Key Beach is best known.
    Official records will show that the Beach was officially opened as 
a Dade County Park ``for the exclusive use of Negroes'' on August 1, 
1945. This was in direct response to a bold protest by several African 
American men led by the late Judge Lawson E. Thomas at an all-white 
Beach in northern Dade County. It was their hope to be arrested, so 
that the case would come to Court, but, precisely to avoid such an 
embarrassment, the County fathers decided to proclaim Virginia Key 
Beach, a mere half mile of shoreline out of all the miles of beaches in 
Dade County, as a ``Colored Beach''. It was an instant success, even 
though the only means of access was by boat from downtown Miami, and 
would be even more successful after the construction of the automobile 
causeway in 1949.
    Unofficially, however, the history of this extraordinary 
recreational site goes back a good bit farther than 1945. Many of 
Miami's African American community elders recall visiting ``Bears 
Gut,'' as it was then known, as youngsters as early as the 1930's. 
There was apparently an ``understanding'' whereby this particular area 
was recognized as reserved for Blacks to enjoy. Families would travel 
there by boat, and parents closely supervised their children to be sure 
that they did not venture too far into the water, with its dangerously 
swift current and sharp dropoffs. (One story holds that the drop-offs 
were deliberately excavated by rum runners who needed to bring their 
smuggling boats closer to shore to unload).
    An even earlier use of the site by African Americans is suggested 
by a notation on a United States survey map, published in 1918, of a 
survey conductod in 1916. There, just south of the ``Abandoned Military 
Reservation,'' right at Bear Cut, a rectangle is shown and indicated to 
be a ``Negro Dancing Pavilion.'' The newly constituted (January 2001) 
city of Miami Virginia Key Beach Park Trust is endeavoring to research 
this item further.
    What distinguished Virginia Key Beach during the segregation era 
from so many other ``Colored'' parks throughout the South, was that it 
was not a second-rate facility. The same amenities that had been 
provided for all-white Crandon Park, such as the carousel, were also at 
Virginia Key Beach, in addition to a wonderful mini-train amusement 
ride. Most of the buildings were well constructed, and have weathered 
both hurricanes and the forces of ``demolition by neglect'' that have 
prevailed for nearly twenty years. They still stand today, awaiting 
restoration efforts that are currently underway.
    Even more importantly, partly because of this long history, the 
Park was fully embraced by the community. Not even the sting of forced 
racial separation and all of its restrictions could dampen the 
community's enjoyment of Virginia Key Beach. ``It was a beautiful 
place.'' ``It was Paradise.'' ``It was like a trip to the Bahamas 
without ever leaving the city.'' Such quotations abound among those who 
remember the Park in its heyday, with its dance floor and outdoor 
jukebox, its famous Virginia Key Corn Dogs at the refreshment stand, 
its very popular amusements, its well-used boat ramp, and the ``lines 
all the way back to New York'' to secure a cabana on the weekends. A 
rare exception to the nonresidential character of the site was the 
``cottages,'' a frame structure with three apartment units for 
overnight stays that served honeymooners, black celebrities, and others 
with the means to enjoy the Park for more than a day.
    Virginia Key Beach was the hub of African American life in South 
Florida. It brought together all neighborhoods and social classes, and 
attracted people from as far away as Palm Beach County. Churches and 
organizations held major functions there. Many a Miamian can recall 
that their ``full immersion'' baptism into the Christian Church took 
place right at Virginia Key Beach. Virginia Key Beach was also Lover's 
Lane for those who could get there. Most of all, it as a place of 
family fun and togetherness, and a much-need respite from otherwise 
pervasive racism, in an extraordinarily beautiful subtropical scenic 
ambience not to be found anywhere else.
    It is one of South Florida's, and the nation's great losses that a 
whole generation has come of age who did not have the opportunity to 
enjoy this wonderful treasure because it has been closed to the public 
for the better part of two decades. However, bright new hope has arisen 
for the future as a diverse group of citizens have made a commitment, 
working in cooperation with the City of Miami, to bring the Park back 
to its former glory, but this time for ALL residents and visitors. Its 
unique history and natural features make it a landmark of national and 
international importance. Indeed, much of its unique importance is 
shared with Biscayne National Park, which is comprised mainly of 
Florida Keys and reefs, and which embodies such remarkable history as 
the story of Parson Jones and his family. The invaluable asset that is 
represented by historic Virginia Key Beach is deserving of every 
available source of support, for the benefit of the nation and the 
world, as well as the residents and visitors of Miami.
    We respectfully request your support of this legislation for a 
study for inclusion of Virginia Key Beach Park in the National Park 
Service.
            Sincerely,
                                          M. Athalle Range,
                                                             Chair.
                                 ______
                                 
  Statement of Francis Gary Powers, Jr., Founder, The Cold War Museum
    Dear Mr. Chairman: My name is Francis Gary Powers, Jr. and I am 
founder of The Cold War Museum, a 501(c)(3) charitable organization 
dedicated to education, preservation, and research on the global, 
ideological, and political confrontations between East and West from 
the end of World War II to the dissolution of the Soviet Union.
    I greatly appreciate this opportunity to provide this written 
statement in support of S. 1257 to the National Parks Subcommittee and 
would like to express my gratitude to Senator Reid for sponsoring a 
bill that aims to preserve such a vital part of our country's history. 
Last year, I testified before the House Subcommittee on National Parks, 
Recreation and Public Lands in support of H.R. 107.
    This legislation means much to me personally. As the son of a 
famous Cold War figure, I grew up with the Cold War. The Cold War 
Museum began for me as a way to honor my father, but it soon took on a 
much greater life and purpose. I am working toward a museum that will 
honor all the men and women who worked for democracy and freedom during 
the Cold War. The Cold War Museum will dedicate resources to 
commemorating those whose deeds and sacrifices furthered democracy, but 
the Museum strives for an international and objective understanding of 
the Cold War--one of the most intense periods of conflict, and most 
dangerous years in human history.
    The Cold War Museum has collected over two million dollars worth of 
artifacts, currently in storage, and last year it became an affiliate 
of the Smithsonian Institution. While the Museum does not yet have a 
permanent home, it sponsors traveling exhibits that have been displayed 
throughout the U.S. and in Norway, Germany, and Russia. In the past two 
years, more than 250,000 people have visited the Museum's website 
(www.coldwar.org). Presently, we are in negotiations with Fairfax 
County officials to establish our permanent location at the former Nike 
Missile Base in Lorton, Virginia.
    The growing popularity of the Cold War Museum underscores its 
commitment not to revive old hatreds, but rather to promote lessons 
learned. It's about teaching democracy and the pursuit of world peace.
    The Museum's distinguished Board of Directors includes experts in 
museum management, nonprofit management, and various aspects of Cold 
War history. It also has an Advisory Board, which includes Sergei 
Khrushchev, son of Nikita Khrushchev; former Eisenhower aide General 
Andrew Goodpaster; the late Ambassador Vernon Walters; and renowned 
photographic interpreter Dino Brugioni.
    Recently, the Cold War Museum developed a list of important Cold 
War sites, a focal point of both S. 1257 and H.R 107, the House-passed 
companion bill. We believe that the goal of recognizing a Cold War site 
in every state is achievable and look forward to providing any 
assistance that could be useful to the Secretary of the Interior once 
this legislation is enacted.
    We also believe that Section 3 of S. 1257, which establishes a 
``Cold War Advisory Committee'' is an excellent provision in that it 
will make available to the Secretary a broad range of persons with 
expertise in Cold War and U.S. history, and in historic preservation. 
We strongly urge the Subcommittee to include this recommendation as a 
means of assuring that the study will have the best possible input for 
its final report.
    America has honored men and women from many wars who died for 
freedom, but whatever the reason, there has been almost no recognition 
of the Cold War, an era that lasted almost 50 years, cost thousands of 
lives, trillions of dollars, changed the course of history, and left 
America the only remaining superpower. However, the Cold War is 
virtually unknown to the current generation. This is a great disservice 
to all those who gave their lives during the Cold War.
    James Billlington, Librarian of Congress, said in a foreign policy 
speech,

          The Cold War was the central conflict of the second half of 
        the 20th century, the longest and most unconventional war of 
        the entire modern era and an unprecedented experience for 
        Americans. We were faced for the first time in our history with 
        an opponent who was both ideologically committed to overthrow 
        our system and was equipped to destroy us physically.

    Journalist Charles Krauthammer, in an Op-Ed piece in the Washington 
Post, entitled ``Build a Cold War Memorial,'' had this to say:

          The Cold War did not have the dramatic intensity of World War 
        II, but it was just as real and just as dangerous. Though often 
        clandestine and subtle, it ranged worldwide, cost many lives, 
        evoked much heroism and lasted what seemed like forever. 
        Considering the stakes, the scope and the suffering, this was a 
        struggle that deserves commemoration.

    Although the Cold War periodically resurfaces in the news, as is 
evident by the Hanssen spy case, many people really don't understand 
the background and the history. The Cold War Museum's web site 
testifies to the public's desire for information.
    Krauthammer said this about a proposed Cold War Monument:

          It needn't be grandiose, but it must have a small museum for 
        instruction. A gallery of heroes: Truman, Marshall, Churchill, 
        Reagan. A hall for the fallen: the secret agents who died 
        anonymously. A tribute to allies and friends . . . and a gulag 
        display, so our children will learn the nature of evil.

    We hope that the study that will be undertaken by Department of the 
Interior when this legislation is enacted will establish the value of a 
permanent Cold War Museum as the central repository for Cold War 
artifacts and information.
    Our plans include the following:

  <bullet> Display Cold War photos, artwork, and artifacts.
  <bullet> Establish an endowed research chair at the Cold War Museum.
  <bullet> Collect biographies on key figures of the Cold War.
  <bullet> Record oral and written histories to capture the human side 
        of the conflict.
  <bullet> Create an inventory of key technologies that resulted from 
        Cold War research and development.
  <bullet> Develop a comprehensive inventory of significant Cold War 
        sites and resources that need to be preserved such as military 
        sites, homes of key figures, laboratories, test sites, and 
        historic places.
  <bullet> Build a Cold War Memorial to honor our Cold War veterans and 
        participants.

    I am proud to say that the Cold War Museum is already addressing 
these needs. We are working with the Smithsonian to determine which 
artifacts from their national collection can be used in Cold War Museum 
exhibits and displays. We have received offers of support from a 
variety of sources including the Holocaust Museum, Voice of America, 
and the embassies of Bulgaria, Estonia, Hungary, Latvia, Lithuania, and 
Slovakia. Earlier this year, the Commonwealth of Virginia provided an 
initial grant to the museum in the amount of $28,000 and a resolution 
of support stating that the Commonwealth supports the Cold War Museum 
locating at the former Nike Missile base in Lorton, Virginia.
    The interest and support of James Billington, Charles Krauthammer, 
the Smithsonian Institution, the Voice of America, the Holocaust 
Museum, various embassies and schools, and the Commonwealth of Virginia 
provide strong evidence that this legislation will be of significant 
value in educating students, honoring Cold War veterans, and preserving 
Cold War history.
    Mr. Chairman, the Directors of the Cold War Museum and I would like 
to express our strongest possible support for the enactment of either 
S. 1257 or H.R 107, although the establishment of an Advisory Committee 
by S. 1257 makes that bill considerably more effective in our opinion.
    We believe it is vital to begin immediately to preserve these 
historical resources. Records are being lost and historical sites fall 
prey to developers every day. S. 1257 and H.R. 107 represent an 
important step in the right direction. We urge the Congress to act 
expeditiously so that efforts to preserve this important part of 
American history and its historical sites can be preserved for all 
time.
    Thank you for this opportunity to present our views.
            Very Truly Yours,
                                  Francis Gary Powers, Jr.,
                                                           Founder.


                            <greek-d>
</pre></body></html>
